                            CTOR
                      SPE          GE
                 IN                     N
             F                              E
         O                                      R
     E




                                                A
 C




                                                    L
FI
OF




                                                        OFFICE OF INSPECTOR GENERAL
                                                             EXPORT-IMPORT BANK
                                                              of the UNITED STATES




                 AUDIT OF THE
              EXPORT-IMPORT BANK
             OF THE UNITED STATES
                FISCAL YEAR 2011
             FINANCIAL STATEMENTS

                                                                     November 15, 2011
                                                                        OIG-AR-12-01
Office of Inspector General            Export-Import Bank
                                       of the United States

November 15, 2011


MEMORANDUM

TO:                  Fred P. Hochberg
                     Chairman and President

                     David Sena
                     Acting Chief Financial Officer

FROM:                Jean Smith
                     Assistant Inspector General for Audit
SUBJECT:            Audit of the Export-Import Bank’s Financial Statements for Fiscal Year 2011

This memorandum transmits Deloitte and Touche LLP’s audit reports of the Export-Import Bank
of the United States (Ex-Im Bank) financial statements for fiscal year ended 2011. Under a
contract monitored by this office, we engaged the independent public accounting firm of Deloitte
and Touche to perform the audit. The contract required the audit to be done in accordance with:
United States generally accepted government auditing standards; Office of Management and
Budget audit guidance; and the Government Accountability Office / President’s Council on
Integrity and Efficiency Financial Audit Manual.

Deloitte and Touche issued an unqualified opinion on Ex-Im Bank’s financial statements. Also,
Deloitte and Touche reported a significant deficiency in Ex-Im Bank’s internal control over
financial reporting and no reportable noncompliance with laws and regulations were found.

Deloitte and Touche is responsible for the attached auditor’s reports dated November 14, 2011
and the conclusions expressed in the reports. We do not express opinions on Ex-Im Bank’s
financial statements or internal control or conclusions on compliance with laws and regulations.

We appreciate the cooperation and courtesies provided to Deloitte and Touche and this office
during the audit.

Attachment

cc:      Alice Albright, Executive Vice President and Chief Operating Officer
         Audit Committee
         Joseph Sorbera, Controller
         Patricia Wolf, Designated Audit Liaison



                   811 Vermont Avenue, N.W. Washington, D.C. 20571
                         Export-Import Bank of the United States
                          Fiscal Year 2011 Financial Statements

                                          TABLE OF CONTENTS

INDEPENDENT AUDITOR’S REPORT ............................................................SECTION 1

INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER
FINANCIAL REPORTING AND ON COMPLIANCE AND OTHER MATTERS
BASED UPON THE AUDIT PERFORMED IN ACCORDANCE WITH
GOVERNMENT AUDITING STANDARDS .....................................................SECTION 2

FINANCIAL STATEMENTS ..............................................................................SECTION 3
  Balance Sheets
  Statements of Net Costs
  Statements of Changes in Net Position
  Combined Statements of Budgetary Resources
  Notes to the Financial Statements

MANAGEMENT’S DISCUSSION AND ANALYSIS OF RESULTS OF
OPERATIONS AND FINANCIAL CONDITION (UNAUDITED)...................SECTION 4
   Export-Import Bank of the United States




              SECTION 1



INDEPENDENT AUDITOR’S REPORT
Deloitte~                                                                       Deloitte & Touche LLP
                                                                                Suite 800
                                                                                1750 Tysons Boulevard
                                                                                McLean, VA 22102-4219
                                                                                USA
                                                                                Tel: + 1 703251 1000
                                                                                Fax: + 1 703251 3400
                                                                                www.deloitte.com



 INDEPENDENT AUDITORS' REPORT

 To the Audit Committee, the Board of Directors, and the Inspector General ofthe
 Export-Import Bank of the United States


 We have audited the accompanying balance sheets of the Export-Import Bank of the
 United States (Ex-Im Bank) as of September 30, 2011 and 2010, and the related
 statements of net costs, changes in net position, and the combined statements of
 budgetary resources (collectively referred to as the "financial statements") for the years
 then ended. These financial statements are the responsibility ofEx-Im Bank's
 management. Our responsibility is to express an opinion on these financial statements
 based on our audits.

  We conducted our audits in accordance with auditing standards generally accepted in the
  United States of America, the standards applicable to financial audits contained in the
  Government Auditing Standards, issued by the Comptroller General ofthe United States,
 and Office of Management and Budget (OMB) Bulletin No.07-04, Audit Requirements
 for Federal Financial Statements, as amended. Those standards require that we plan and
 perform the audit to obtain reasonable assurance about whether the financial statements
 are free of material misstatement. An audit includes consideration of internal control
 over financial reporting as a basis for designing audit procedures that are appropriate in
 the circumstances, but not for the purpose of expressing an opinion on the effectiveness
 of Ex-Im Bank's internal control over financial reporting. Accordingly, we express no
 such opinion. An audit also includes examining, on a test basis, evidence supporting the
 amounts and disclosures in the financial statements, assessing the accounting principles
 used and significant estimates made by management, as well as evaluating the overall
 financial statement presentation. We believe that our audits provide a reasonable basis
 for our opinion.

 In our opinion, such financial statements present fairly, in all material respects, the
 financial position of Ex-Im Bank as of September 30, 2011 and 2010, and its net costs of
 operations and changes in net position, and combined budgetary resources for the years
 then ended in conformity with accounting principles generally accepted in the United
 States of America,




                                                                               Member of
                                                                               Deloitte Touche Tohmatsu
The accompanying required supplementary information included in the sections entitled
"Management's Discussion and Analysis" and "Required Supplementary Information"
are not required parts of the basic fmancial statements but are supplementary information
required by OMB Circular A-l36, Financial Reporting Requirements, as amended, and
the Federal Accounting Standards Advisory Board. This supplementary information is
the responsibility of Ex-1m Bank's management. We have applied certain limited
procedures, which consisted principally of inquiries of management regarding the
methods of measurement and presentation of required supplementary information.
However, we did not audit such supplementary information and we do not express an
opinion on it.

In accordance with Government Auditing Standards, we have also issued our report dated
November 14, 2011, on our consideration of Ex-1m Bank's internal control over financial
reporting and on our tests of its compliance with certain provisions of laws, regulations,
contracts, and agreements. The purpose of that report is to describe the scope of our
testing of internal control over financial reporting and compliance and the results of that
testing, and not to provide an opinion on internal control over fmancial reporting or on
compliance. That report is an integral part of an audit performed in accordance with
Government Auditing Standards, and should be considered in assessing the results of our
audits.




McLean, Virginia
November 14,2011
         Export-Import Bank of the United States




                    SECTION 2



INDEPENDENT AUDITORS’ REPORT ON INTERNAL
CONTROL OVER FINANCIAL REPORTING AND ON
COMPLIANCE AND OTHER MATTERS BASED UPON
 THE AUDIT PERFORMED IN ACCORDANCE WITH
     GOVERNMENT AUDITING STANDARDS
Deloitte~                                                                           Deloitte & Touche LLP
                                                                                    Suite 800
                                                                                    1750 Tysons Boulevard
                                                                                    McLean, VA 22102-4219
                                                                                    USA
                                                                                    Tel: +1 703251 1000
                                                                                    Fax: +17032513400
                                                                                    www.deloitte.com


INDEPENDENT AUDITORS' REPORT ON INTERNAL CONTROL OVER FINANCIAL
REPORTING AND ON COMPLIANCE AND OTHER MATTERS BASED UPON THE
AUDIT PERFORMED IN ACCORDANCE WITH GOVERNMENT AUDITING
STANDARDS

To the Audit Committee, the Board of Directors, and the Inspector General of the Export-
Import Bank of the United States

We have audited the financial statements of the Export-Import Bank of the United States (Ex-1m
Bank) as of and for the year ended September 30, 2011, and have issued our report thereon dated
November 14,2011. We conducted our audit in accordance with auditing standards generally
accepted in the United States of America, and the standards applicable to financial audits
contained in Government Auditing Standards, issued by the Comptroller General of the United
States and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for
Federal Financial Statements, as amended.

Internal Control Over Financial Reporting

Management of Ex-1m Bank is responsible for establishing and maintaining effective internal
control over financial reporting. In planning and performing our audit, we considered Ex-1m
Bank's internal control over financial reporting as a basis for designing our auditing procedures
for the purpose of expressing our opinion on the financial statements, but not for the purpose of
expressing an opinion on the effectiveness of Ex-1m Bank's internal control over financial
reporting. Accordingly, we do not express an opinion on the effectiveness of Ex-1m Bank's
internal control over financial reporting.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct misstatements on a timely basis. A material weakness is a
deficiency, or a combination of deficiencies, in internal control such that there is a reasonable
possibility that a material misstatement of the entity's financial statements will not be prevented,
or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose
described in the first paragraph of this section and was not designed to identifY all deficiencies in
internal control over financial reporting that might be deficiencies, significant deficiencies or
material weaknesses. We did not identifY any deficiencies in internal control over financial
reporting that we consider to be material weaknesses, as defined above. However, we identified a
certain deficiency in internal control over fmancial reporting, described in the following section,
that we consider to be a significant deficiency in internal control over financial reporting. A
significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is
less severe than a material weakness, yet important enough to merit attention by those charged
with governance.
                                                                                    Member of
                                                                                    Deloitte Touche Tohmatsu
Subsidy Reestimate on Foreign Transactions

Condition:
The Microsoft Excel macro used to generate cash flow streams for the CSC2 input file (OMB
data template for re-estimate calculation) did not utilize the correct default rate for some foreign
currency transactions.

Cause:
The default estimates that populate the foreign currency cash flows in the CSC2 input file were
incorrectly referencing to the wrong data source in the file that the subsidy reestimate Microsoft
Excel macro is run on.

Effect:
The cash flow streams of foreign currency transactions in the CSC2 input file were incorrectly
calculated. The future disbursement, default, principal repayment, and interest were miscalculated
due to the coding error. As a result, the total net subsidy was inaccurate. The error of$134.1
million was corrected in the issued financial statements.

Recommendation:
We recommend that management perform a thorough review of the Microsoft Excel macro script
and perform a reasonableness check of the Microsoft Excel macro results. On a sample basis, a
comparison of the results from the Microsoft Excel macro and an independent calculation of cash
flow streams are recommended.

We noted other matters involving the internal control over financial reporting that will be reported
to Ex-1m Bank in a separate letter.


Compliance and Other Matters

As part of obtaining reasonable assurance about whether Ex-1m Bank's financial statements are
free of material misstatement, we performed tests of its compliance with certain provisions of
laws, regulations, contracts, and grant agreements, noncompliance with which could have a direct
and material effect on the determination of financial statement amounts and certain other laws and
regulations specified in OMB Bulletin No. 07-04, as amended. However, providing an opinion on
compliance with those provisions was not an objective of our audit, and accordingly, we do not
express such an opinion. The results of our tests disclosed no instances of noncompliance or other
matters that are required to be reported under Government Auditing Standards and OMB Bulletin
No. 07-04, as amended.
This report is intended solely for the information and use ofEx-Im Bank, the Audit Committee,
the Board of Directors, the Inspector General, the OMB, the Govermnent Accountability Office,
and the United States Congress and is not intended to be, and should not be, used by anyone other
than these specified parties.




McLean, Virginia
November 14, 2011
Export-Import Bank of the United States




           SECTION 3



FINANCIAL STATEMENTS
                                             Export-Import Bank of the United States


Balance Sheets


                                                                                 As of                   As of
(in millions)                                                              September 30, 2011      September 30, 2010
ASSETS

Intragovernmental
     Fund Balance with the U.S. Treasury (Note 2)                                      $3,842.3              $4,630.4
     Receivable from the Program Account (Note 5)                                         789.3                 842.8
Total Assets - Intragovernmental                                                        4,631.6               5,473.2

Public
    Cash (Note 3)                                                                           0.1                   0.3
    Loans Receivable, Net (Note 4A)                                                     6,701.0               4,868.7
    Receivables from Subrogated Claims, Net (Note 4E)                                     367.2                 437.5
    Other Assets (Note 9)                                                                  11.2                  32.3
Total Assets - Public                                                                   7,079.5               5,338.8

Total Assets                                                                           $11,711.1             $10,812.0
LIABILITIES

Intragovernmental
     Borrowings from the U.S. Treasury (Note 11)                                       $8,279.3              $7,254.5
     Accounts Payable to the U.S. Treasury                                                939.6                 990.3
     Payable to the Financing Account (Note 5)                                            789.3                 842.8
Total Liabilities - Intragovernmental                                                  10,008.2               9,087.6

Public
    Payment Certificates (Note 11)                                                         64.3                  78.8
    Claims Payable                                                                          2.1                  14.4
    Guaranteed Loan Liability (Note 4G)                                                 1,219.5               1,419.6
    Other Liabilities (Note 12)                                                           876.7                 565.5
Total Liabilities - Public                                                              2,162.6               2,078.3

Total Liabilities                                                                      $12,170.8             $11,165.9


NET POSITION

    Capital Stock                                                                       1,000.0               1,000.0
    Unexpended Appropriations                                                             215.8                 255.1
    Cumulative Results of Operations                                                   (1,675.5)             (1,609.0)
Total Net Position                                                                       (459.7)               (353.9)


Total Liabilities and Net Postion                                                      $11,711.1             $10,812.0


The accompanying notes are an integral part of the financial statements.
                                                       Export-Import Bank of the United States



Statements of Net Costs
(in millions)                                                                Loans               Guarantees      Insurance      Total
             For the Year Ended September 30, 2011
Costs
          Interest Expense                                                       $439.0                   $-             $-     $439.0
          Claim Expenses                                                            -                    11.7            5.3      17.0
          Provision for Credit Losses                                             528.2                 (55.8)           9.7     482.1
          Broker Commissions                                                        -                     -              6.1       6.1
Total Costs                                                                       967.2                 (44.1)          21.1     944.2

Earned Revenue
         Interest Income                                                         (461.5)                (41.2)           -       (502.7)
         Fee & Other Income                                                       (23.2)               (282.5)           -       (305.7)
         Insurance Premium & Other Income                                           -                     -            (41.4)     (41.4)
Total Earned Revenue                                                             (484.7)               (323.7)         (41.4)    (849.8)

Net Excess of Program Costs over Program (Revenue)                                482.5                (367.8)         (20.3)      94.4

        Administrative Costs (Note 4K)                                                                                             91.1
        Liquidating Account Distribution of Income                                                                                 21.9

Net Excess Program Costs Over Program (Revenue)                                                                                 $207.4


(in millions)                                                                Loans               Guarantees      Insurance      Total
             For the Year Ended September 30, 2010
Costs
          Interest Expense                                                      $424.2                    $-             $-     $424.2
          Claim Expenses                                                             -                   13.0            4.3      17.3
          Provision for Credit Losses                                             595.9                (368.9)          53.8     280.8
          Broker Commissions                                                         -                     -             5.3       5.3
Total Costs                                                                     1,020.1                (355.9)          63.4     727.6

Earned Revenue
         Interest Income                                                         (502.2)                (79.9)            -      (582.1)
         Fee & Other Income                                                       (31.3)               (268.8)            -      (300.1)
         Insurance Premium & Other Income                                            -                     -           (34.7)     (34.7)
Total Earned Revenue                                                             (533.5)               (348.7)         (34.7)    (916.9)

Net Excess of Program (Revenue) Over Program Costs                                486.6                (704.6)          28.7     (189.3)

        Administrative Costs (Note 4K)                                                                                             90.9
        Liquidating Account Distribution of Income                                                                                 22.9

Total Net Excess Program (Revenue) Over Program Costs                                                                            ($75.5)

The accompanying notes are an integral part of the financial statements.
                                                 Export-Import Bank of the United States


 Statements of Changes in Net Position
                                                                             For the Year Ended September 30, 2011
                                                            Capital         Unexpended       Cumultative Results
(in millions)                                               Stock          Appropriations       of Operations        Total

Beginning Net Position                                      $1,000.0               $255.1               ($1,609.0)     ($353.9)

Budgetary Financing Sources (Uses)
         Appropriations Received - Inspector General              -                   2.5                     -            2.5
         Appropriations Received - Reestimate                     -                 717.9                     -          717.9
         Cancelled Authority                                      -                 (21.9)                    -          (21.9)
         Transfer Out Without Reimbursement                       -                   -                    (721.9)      (721.9)
         Other Adjustments                                        -                   -                       0.8          0.8
         Appropriations Used                                      -                (737.8)                  737.8          -
         Offsetting Collections                                   -                   -                     120.7        120.7
Other Financing Sources
         Imputed Financing                                        -                    -                     3.5           3.5
Total Financing Sources (Uses)                                    -                  (39.3)                140.9         101.6
Adjusted Net Position                                        1,000.0                215.8                (1,468.1)      (252.3)

Less: Excess of Program Costs Over Revenue                        -                   -                    207.4         207.4

Ending Net Position                                         $1,000.0               $215.8               ($1,675.5)     ($459.7)




                                                                             For the Year Ended September 30, 2010
                                                            Capital         Unexpended       Cumultative Results
                                                            Stock          Appropriations       of Operations        Total

Beginning Net Position                                      $1,000.0               $293.1               ($2,135.4)     ($842.3)

Budgetary Financing Sources (Uses)
         Appropriations Received - Inspector General              -                    2.5                    -            2.5
         Appropriations Received - Reestimate                     -                1,121.1                    -        1,121.1
         Cancelled Authority                                      -                  (17.0)                   -          (17.0)
         Transfer Out Without Reimbursement                       -                    -                   (778.2)      (778.2)
         Other Adjustments                                        -                    -                     (2.0)        (2.0)
         Appropriations Used                                      -               (1,144.6)               1,144.6          -
         Offsetting Collections                                   -                    -                     82.8         82.8
Other Financing Sources
         Imputed Financing                                        -                    -                     3.7           3.7
Total Financing Sources (Uses)                                    -                  (38.0)                450.9         412.9
Adjusted Net Position                                        1,000.0                255.1                (1,684.5)      (429.4)

Less: Excess of Program Costs Over Revenue                        -                   -                     (75.5)           (75.5)

Ending Net Position                                         $1,000.0               $255.1               ($1,609.0)     ($353.9)

The accompanying notes are an integral part of the financial statements.
                                                                               Export-Import Bank of the United States



 Combined Statements of Budgetary Resources

                                                                                             For the Year Ended                                       For the Year Ended
                                                                                            September 30, 2011                                       September 30, 2010
                                                                                               Non-Budgetary                                            Non-Budgetary
                                                                                               Credit Reform                                            Credit Reform
(in millions)                                                              Budgetary        Financing Accounts            Total       Budgetary      Financing Accounts      Total
BUDGETARY RESOURCES
Unobligated Balance, Brought Forward October 1                                   $908.8                $1,555.2           $2,464.0        $559.4                 $938.6      $1,498.0
Recoveries of Prior-Year Unpaid Obligations                                        20.7                    45.1               65.8          20.8                   10.0          30.8
Budget Authority:
     Appropriation                                                                720.4                      -               720.4        1,123.6                     -       1,123.6
     Borrowing Authority (Note 16)                                                   -                  6,612.1            6,612.1             -                 5,131.0      5,131.0
     Spending Authority from Offsetting Collections                               735.8                 2,586.2            3,322.0          512.2                3,031.8      3,544.0
Permanently Not Available                                                        (300.6)                 (752.0)          (1,052.6)         (34.1)                (998.6)    (1,032.7)
Total Budgetary Resources (Note 16)                                            $2,085.1               $10,046.6          $12,131.7       $2,181.9               $8,112.8    $10,294.7


STATUS OF BUDGETARY RESOURCES
Obligations Incurred, Direct (Note 16)                                          $886.4                 $8,763.0           $9,649.4       $1,273.1               $6,557.6     $7,830.7
 Unobligated Balance, Apportioned (Note 16)                                       957.5                 1,283.6            2,241.1          679.8                1,555.2      2,235.0
 Unobligated Balance Not Available (Note 16)                                      241.2                      -               241.2          229.0                     -         229.0
Total Status of Budgetary Resources                                            $2,085.1               $10,046.6          $12,131.7       $2,181.9               $8,112.8    $10,294.7

CHANGE IN OBLIGATED BALANCE
Obligated Balance, Net:
     Unpaid Obligations, Brought Forward October 1                               $108.4                $5,510.6           $5,619.0          $96.7               $2,710.9     $2,807.6
Obligations Incurred, Net (Note 16)                                               886.4                 8,763.0            9,649.4        1,273.1                6,557.6      7,830.7
Gross Outlays                                                                    (874.9)               (4,654.3)          (5,529.2)      (1,240.6)              (3,747.9)    (4,988.5)
Recoveries of Prior-Year Unpaid Obligations                                       (20.7)                  (45.1)             (65.8)         (20.8)                 (10.0)       (30.8)
Total, Unpaid Obligated Balance, Net, End of Period                               $99.2                $9,574.2           $9,673.4        $108.4                $5,510.6     $5,619.0

NET OUTLAYS
    Gross Outlays                                                                $874.9                $4,654.3           $5,529.2       $1,240.6               $3,747.9     $4,988.5
    Less: Actual Offsetting Collections                                          (735.8)               (2,586.2)          (3,322.0)        (512.2)              (3,031.8)    (3,544.0)
Net Outlays                                                                      $139.1                $2,068.1           $2,207.2        $728.4                 $716.1      $1,444.5

The accompanying notes are an integral part of the financial statements.
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2011 and Year Ended September 30, 2010

           1. Summary of Significant Accounting and Reporting Policies

Enabling Legislation and Mission
The Export-Import Bank of the United States (Ex-Im Bank or the Bank) is an
independent executive agency and a wholly-owned U.S. government corporation that
was first organized as a District of Columbia banking corporation in 1934. Ex-Im Bank is
the official export-credit agency of the United States. Ex-Im Bank's operations
subsequent to September 30, 1991, are subject to the provisions of the Federal Credit
Reform Act (FCRA) of 1990 (P.L. 101-508), which became effective October 1, 1991.
The Export-Import Bank Reauthorization Act of 2006 extended the Bank’s charter until
September 30, 2011. In accordance with its enabling legislation, continuation of Ex-Im
Bank as an independent corporate agency of the United States is subject to periodic
extensions granted by Congress. The Administration has requested a four year
extension of the Bank’s charter through FY 2015. Congressional authorization has been
temporarily extended through November 18, 2011. Management believes that Ex-Im
Bank’s authorization will be further extended until final authorization is passed by
Congress. If the charter is temporarily not extended, the Bank will not be able to
authorize new credits; however, the Bank will continue to service existing loans,
guarantees, and insurance policies.

Ex-Im Bank’s mission is to support U.S. jobs by facilitating the export of U.S. goods and
services, by providing competitive export financing, and ensuring a level playing field for
U.S. goods and services in the global marketplace. Ex-Im Bank supports U.S. exports by
providing export financing through its loan, guarantee and insurance programs in cases
where the private sector is unable or unwilling to provide financing or when such support
is necessary to level the playing field due to financing provided by foreign governments
to their exporters that compete with U.S. exporters. The Bank’s charter requires
reasonable assurance of repayment for the transactions it authorizes, and the Bank
closely monitors credit and other risks in its portfolio. In pursuit of its mission of
supporting U.S. exports, Ex-Im Bank offers four financial products: direct loans, loan
guarantees, working capital guarantees and export credit insurance. All Ex-Im Bank
obligations carry the full faith and credit of the U.S. government.

Ex-Im Bank offers fixed-rate loans directly to foreign buyers of U.S. goods and services.
Ex-Im Bank extends to a company’s foreign customer a fixed-rate loan covering up to 85
percent of the U.S. contract value. The buyer must make a cash payment to the U.S.
exporter of at least 15 percent of the U.S. contract value. Ex-Im Bank's direct loans carry
the lowest fixed-interest rate permitted for the importing country and term under the
"Arrangement on Guidelines for Officially Supported Export Credits" negotiated among
members of the Organisation for Economic Co-operation and Development (OECD).

Ex-Im Bank loan guarantees cover the repayment risks on the foreign buyer’s debt
obligations incurred to purchase U.S. exports. Ex-Im Bank guarantees to a lender that, in
the event of a payment default by the borrower, it will pay to the lender the outstanding
principal and interest on the loan. Ex-Im Bank’s comprehensive guarantee covers all of
the commercial and political risks for up to 85 percent of the U.S. contract value.

Loans and guarantees extended under the medium-term loan program typically have
repayment terms of one to seven years, while loans and guarantees extended under the
long-term loan program usually have repayment terms in excess of seven years.


                                             1
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2011 and Year Ended September 30, 2010

Generally, both the medium-term and long-term loan and guarantee programs cover up
to 85 percent of the U.S. contract value of shipped goods.

Under the Working Capital Guarantee Program, Ex-Im Bank provides repayment
guarantees to lenders on secured, short-term working capital loans made to qualified
exporters. The working capital guarantee may be approved for a single loan or a
revolving line of credit. Ex-Im Bank’s working capital guarantee protects the lender from
default by the exporter for 90 percent of the loan principal and interest. Ex-Im Bank's
Supply Chain Finance Guarantee Program (SCF Program) is designed to support U.S.
exporters and their U.S. based suppliers many of whom are small and medium sized
companies. Under the SCF Program, lenders will purchase accounts receivable owned
by the suppliers and due from the exporter. Ex-Im Bank provides a 90% guarantee on
the repayment obligation of the exporter. The purchase of accounts receivable allows
suppliers to receive immediate payment of their invoices, decreases their cost of funds,
and enables them to better fulfill new orders and maintain/add jobs. The exporters
benefit by having the option to extend payment terms without imposing undue financial
hardship on their suppliers.

Ex-Im Bank’s export-credit insurance policies help U.S. exporters sell their goods
overseas by protecting them against the risk of foreign-buyer or other foreign-debtor
default for political or commercial reasons, allowing them to extend credit to their
international customers. Insurance policies may apply to shipments to one buyer or
many buyers, insure comprehensive (commercial and political) credit risks or only
political risks, and cover short-term or medium-term sales.

Basis of Accounting
The format of the financial statements and footnotes is in accordance with form and
content guidance provided in Office of Management and Budget (OMB) Circular A-136,
Financial Reporting Requirements, revised as of October 27, 2011.

Use of Estimates
The preparation of financial statements requires management to make estimates and
assumptions that affect the reported amounts of assets and liabilities and disclosure of
contingent assets and liabilities at the date of the financial statements and the reported
amounts of revenues and expenses during the reporting period. The most significant of
these estimates are the allowances for losses on loans receivable, subrogated claims
receivable, and guarantees and insurance. Ex-Im Bank uses its historical default and
recovery experience to calculate loss estimates. Actual results may differ from those
estimates.

Loans Receivables, Net
Loan obligations are carried at principal and interest receivable amounts less an
allowance for credit losses.

From time to time, Ex-Im Bank extends the repayment date and may modify the interest
rate of some or all principal installments of a loan because the obligor or country has
encountered financial difficulty and Ex-Im Bank has determined that providing relief in
this manner will enhance the ability to collect the loan.




                                             2
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2011 and Year Ended September 30, 2010

Receivables from Subrogated Claims, Net
Receivables from subrogated claims represent the outstanding balance of payments that
were made on claims that were submitted to Ex-Im Bank in its capacity as guarantor or
insurer under Ex-Im Bank's export guarantee or insurance programs. Receivables from
subrogated claims are carried at principal and interest receivable amounts less an
allowance for claim losses. Under the subrogation clauses in its guarantee and
insurance contracts, Ex-Im Bank receives all rights, title and interest in all amounts
relating to claims paid under insurance policies and guarantees and therefore
establishes an asset to reflect such rights.

Accrued Interest
Interest is accrued on loans and claims as it is earned. Generally, loans and subrogated
claims receivable delinquent 90 days or more are placed on a nonaccrual status unless
they are well-secured and significant collections have been received. At the time that a
loan or claim is placed on nonaccrual status, any accrued but unpaid interest previously
recorded is reversed against current-period interest income. The interest on these loans
is accounted for on a cash basis until qualifying for return to accrual status. Loans are
returned to accrual status when all principal and interest amounts contractually due are
brought current and future payments are reasonably assured.

Accounting for Capitalized Interest on Rescheduled Loans and Subrogated Claims
Rescheduling agreements frequently allow for Ex-Im Bank to add uncollected interest to
the principal balance of rescheduled loans and subrogated claims receivable (i.e.,
capitalized interest). When capitalized, any accrued interest receivable is reversed
against current period’s interest income. The amount of interest that was capitalized and
included in the principal balance is recorded as income when cash collections occur and
only after all principal not related to the capitalized interest is paid. An allowance is
established for all uncollected capitalized interest.

Allowance for Losses on Loans, Guarantees, Insurance and Subrogated Claims
The allowance for losses provides for estimated losses inherent in the loan, claim,
guarantee and insurance portfolios. The allowance is established through a provision
charged to earnings. Write-offs are charged against the allowance when management
believes the uncollectibility of a loan or claim balance is confirmed. Subsequent
recoveries, if any, are credited to the allowance.

The allowance is evaluated on a regular basis by management and is based upon
management’s periodic review of the collectability of the credits in light of historical and
market experience, the nature and volume of the credit portfolio, adverse situations that
may affect the borrower’s ability to repay, estimated value of any underlying collateral,
and prevailing worldwide economic and political conditions. This evaluation is inherently
subjective as it requires estimates that are susceptible to significant revision as more
information becomes available.




                                              3
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2011 and Year Ended September 30, 2010

The allowance for Ex-Im Bank credit-reform credits represents the amount of estimated
credit loss associated with the applicable credit. The credit loss is defined as the net
present value of estimated loan, guarantee and insurance defaults less subsequent
estimated recoveries. Ex-Im Bank has established cash-flow models for expected
defaults, fees and recoveries to estimate the credit loss for each approved credit. For
new authorizations, the models incorporate Ex-Im Bank’s actual historical loss and
recovery experience.

The net credit loss of credit-reform loans, guarantees and insurance is re-estimated
annually in accordance with OMB guidelines and Statement of Federal Financial
Accounting Standards (SFFAS) 18, “Amendments to Accounting Standards for Direct
Loans and Loan Guarantees”. The re-estimates adjust the allowance for credit losses to
account for actual activity and changes in the financial and economic factors that affect
the repayment prospects over time.

Accounting for Guarantees in a Foreign Currency
Ex-Im Bank provides guarantees and insurance denominated in certain foreign
currencies. The foreign currencies approved for Ex-Im Bank guarantees as of
September 30, 2011, are: Australian dollar, Brazilian real, British pound, Canadian
dollar, CFA franc, Colombian peso, Egyptian pound, euro, Indian rupee, Indonesian
rupiah, Japanese yen, Korean won, Malaysian ringgit, Mexican peso, Moroccan dirham,
New Zealand dollar, Norwegian krone, Pakistani rupee, Philippine peso, Polish zloty,
Russian ruble, South African rand, Swedish krona, Swiss franc, Taiwanese dollar and
Thai baht. At the time of authorization, Ex-Im Bank records the authorization amount as
the U.S. dollar equivalent of the foreign-currency obligation based on the exchange rate
at that time. At the end of each fiscal year, Ex-Im Bank determines the dollar equivalent
of the outstanding balance for each foreign-currency guarantee based on the exchange
rate at the end of the year and adjusts the guarantee loan liability accordingly.

Borrowings from the U.S. Treasury
The main source of Ex-Im Bank's outstanding debt is borrowings from the U.S. Treasury.
Borrowings from the U.S. Treasury are used to finance medium-term and long-term
loans. These borrowings carry a fixed rate of interest. They are further discussed in Note
11.

Payment Certificates
Payment certificates represent Ex-Im Bank's outstanding borrowings related to specific
claims for which Ex-Im Bank is paying the guaranteed lender as the guaranteed
installments become due. Payment certificates are issued by Ex-Im Bank in exchange
for the foreign importer’s defaulted note which was guaranteed by Ex-Im Bank and the
payment certificates carry the same repayment terms and interest rate as the
guaranteed foreign importer’s note. Payment certificates are backed by the full faith and
credit of the government and are freely transferable.

Claims Payable
Liabilities for claims arising from Ex-Im Bank's guarantee and insurance activities and
the related estimated losses and claim recovery expenses are accrued upon approval of
a claim.




                                            4
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2011 and Year Ended September 30, 2010

Accounts Payable to the U.S. Treasury
Accounts payable to the U.S. Treasury include the results of the credit-loss re-estimate
required under the FCRA. The payable represents funds that are held in credit-reform
financing accounts that are determined to be in excess of amounts needed to cover
future defaults. The payable also includes expired appropriations no longer available for
obligation that will be returned to the U.S. Treasury.

Fees and Premia
Ex-Im Bank charges a risk-related exposure fee under both the loan and guarantee
programs that is collected on each loan disbursement or shipment of goods under the
guarantee policy.

On working capital guarantees, Ex-Im Bank charges an up-front facility fee, which, due
to the short-term nature of the contracts, is credited to income as collected. Premia
charged under insurance policies are recognized as income using a method that
generally reflects the exposure over the term of the policy.

Appropriated Capital
Appropriations received by Ex-Im Bank pursuant to the FCRA are recorded as paid-in-
capital. Beginning in FY 2008, fees collected in excess of expected credit losses are
used to reimburse the U.S. Treasury for appropriations provided for program and
administrative costs, resulting in a net appropriation of zero. Appropriations received
prior to FY 2008 and not required to finance credit activities are returned to the U.S.
Treasury when the period of availability ends.

Congress has appropriated certain sums specifically for Ex-Im Bank’s tied-aid activities.
Tied-aid is government-to-government concessional financing of public sector capital
projects in developing countries. Tied-aid terms usually involve total maturities longer
than 20 years, lower than market interest rates and/or direct grants.

Imputed Financing
A financing source is imputed by Ex-Im Bank to provide for pension and other retirement
benefit expenses recognized by Ex-Im Bank but financed by the Office of Personnel
Management (OPM).

Liquidating Account Distribution of Income
Ex-Im Bank maintains a liquidating account which accumulates the repayment on loans
and claims issued prior to the FCRA. At the end of each fiscal year, Ex-Im Bank
transfers the cash balance in this account to the U.S. Treasury. The amount transferred
is detailed on the accompanying Statements of Net Costs.




                                            5
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2011 and Year Ended September 30, 2010


2. Fund Balance with the U.S. Treasury

Fund balances as of September 30, 2011 and September 30, 2010 were as follows:

(in millions)                                                  FY 2011        FY 2010
Revolving Funds                                                  $2,506.2       $3,584.7
General Funds - Unexpended Appropriations                           462.7          490.8
General Funds - Offsetting Collections                              839.4          537.3
Other Funds - Unallocated Cash                                       34.0           17.6
      Total                                                      $3,842.3       $4,630.4

Status of Fund Balance with the U.S. Treasury
 Unobligated Balance
    Available                                                     $2,241.1       $2,235.0
    Expired                                                          241.2          229.0
    Canceled and Unavailable                                           3.7           11.1
  Obligated Balance Not Yet Disbursed                              1,322.3        2,137.7
   Funds Pending Application                                          34.0           17.6
     Total                                                        $3,842.3       $4,630.4


Revolving funds are credit-reform financing accounts and cash balances in the pre-
credit-reform revolving fund. Included in the credit-reform financing accounts are
disbursed appropriations, exposure fees collected, and interest paid by the U.S.
Treasury to Ex-Im Bank on the balances in the account. These funds are available to
cover losses in Ex-Im Bank’s credit programs. Unexpended appropriated funds and
unexpended offsetting collections are deposited in a noninterest-bearing account at the
U.S. Treasury. These funds are available to Ex-Im Bank when the credit activity to which
they relate takes place or to finance administrative expenses. Upon disbursement of the
related loans or shipment of goods under guarantee or insurance policies, the funds
become available to either subsidize the related loan disbursement or to be invested in
the credit-reform financing accounts to fund the credit costs of the guarantee and
insurance policies. Unallocated cash represents collections pending final application to
the applicable loan or guarantee.

Unobligated available funds represent unexpired appropriations and funds held in credit-
reform financing accounts for payment of future guaranteed loan defaults. Unobligated
expired funds represent appropriations that are no longer available for new obligations.
Unobligated canceled funds represent appropriations that are no longer available and
are returned to the U.S. Treasury in subsequent years. Obligated balance not yet
disbursed represents appropriations, offsetting collections, and funds held in the loan
financing account awaiting disbursement.

As of September 30, 2011 and September 30, 2010, there were no unreconciled
differences between U.S. Treasury records and balances reported on Ex-Im Bank’s
general ledger.




                                            6
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2011 and Year Ended September 30, 2010



3. Cash

 As of September 30, 2011 and September 30, 2010, there was $0.1 million and $0.3
million in cash balances, respectively, held outside the U.S. Treasury. The amount
represents lockbox receipts for collection of insurance premia that are transferred to one
of Ex-Im Bank’s U.S. Treasury accounts upon application to the appropriate credit.

4. Direct Loans and Loan Guarantees, Nonfederal Borrowers

A. Direct Loan, Loan Guarantees and Export-Credit Insurance Programs

Ex-Im Bank offers fixed-rate loans directly to foreign buyers of U.S. goods and services.
Ex-Im Bank extends to a company’s foreign customer a fixed-rate loan covering up to 85
percent of the U.S. contract value. The buyer must make a cash payment to the U.S.
exporter of at least 15 percent of the U.S. contract value. Ex-Im Bank's direct loans carry
the lowest fixed-interest rate permitted for the importing country and term under the
"Arrangement on Guidelines for Officially Supported Export Credits" negotiated among
members of the OECD.

Ex-Im Bank loan guarantees cover the repayment risks on the foreign buyer’s debt
obligations incurred to purchase U.S. exports. Ex-Im Bank guarantees to a lender that, in
the event of a payment default by the borrower, it will pay to the lender the outstanding
principal and interest on the loan. Ex-Im Bank’s comprehensive guarantee covers all of
the commercial and political risks for 85 percent of the U.S. contract value.

Ex-Im Bank’s export-credit insurance helps U.S. exporters sell their goods overseas by
protecting them against the risk of foreign-buyer or other foreign-debtor default for
political or commercial reasons, allowing them to extend credit to their international
customers. Insurance policies may apply to shipments to one buyer or many buyers,
insure comprehensive (commercial and political) credit risks or only political risks, and
cover short-term or medium-term sales.

Credit Reform
The primary purpose of the FCRA is to measure more accurately the cost of federal
credit programs and to place the cost of such credit programs on a basis equivalent with
other federal spending.

OMB established The Interagency Country Risk Assessment System (ICRAS) to provide
a framework for uniformly measuring country risk for the U.S. government’s international
credit programs across the various agencies that administer them. The ICRAS
methodology determines the risk levels for lending to both sovereign governments and
non-sovereign borrowers.




                                             7
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2011 and Year Ended September 30, 2010

ICRAS rates every country to which U.S. government agencies have outstanding loans
or loan guarantees or are anticipating making new credits available. ICRAS rates
countries on the basis of economic and political/social variables. There are 11 sovereign
and 9 non-sovereign risk categories and each country receives two ratings: a sovereign-
risk rating and a private-risk rating. ICRAS currently has risk ratings for 189 sovereign
and 191 non-sovereign markets.

FY 2011 and FY 2010 Activity
Ex-Im Bank received a $2.5 million appropriation in FY 2011 and $2.5 million in FY 2010
for the Inspector General administrative costs.

Beginning in FY 2008, fees collected in excess of expected credit losses (offsetting
collections) are used to cover the Bank’s credit program needs for providing new direct
loans, guarantees and insurance and for administrative costs.

The following table summarizes offsetting collections and appropriations received and
used in FY 2011 and in FY 2010:

(in millions)                                                 FY 2011     FY 2010
RECEIVED AND AVAILABLE
  Appropriation for Inspector General Administrative Costs        $2.5        $2.5
  Offsetting Collections                                         701.1       479.4
  Total Received                                                 703.6       481.9

 Unobligated Balance Carried Over from Prior Year                 676.5      325.6
 Recission of Unobligated Balances                              (275.0)        -
 Cancellations of Prior-Year Obligations                           4.5         -
Total Available                                                 1,109.6      807.5

OBLIGATED
 For Credit Program Costs Excluding Tied Aid                      68.1        42.9
 Credit Modifications & Other                                        -        1.1
 For Credit-Related Administrative Costs                          91.3        86.1
 Subtotal                                                        159.4       130.1
 For Tied Aid                                                      -           -
Total Obligated                                                  159.4       130.1

UNOBLIGATED BALANCE
 Unobligated Balance                                             950.2       677.4
 Unobligated Balance Lapsed                                          -        (0.9)
Remaining Balance                                               $950.2      $676.5

Of the remaining balance of $950.2 million at September 30, 2011, $39.7 million is
available until September 30, 2012; $115.5 million is available until September 30, 2013;
$617.0 million is available until September 30, 2014, and $178.0 million is available until
expended and may be used for tied aid.




                                                8
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2011 and Year Ended September 30, 2010

New loans, guarantees and insurance result in a program cost (or subsidy cost) when
the net present value of expected cash disbursements exceeds expected cash receipts.
Cash receipts typically include fees or premia, loan principal and interest, and cash
disbursements typically include claim payments and loan disbursements. For new
authorizations, Ex-Im uses both its own historical default and recovery rates in its cash
flow models to calculate program cost.

When the present value of expected cash receipts exceeds the present value of
expected cash disbursements, a "negative" credit subsidy (or program revenue) arises.

In FY 2011 and in FY 2010, Ex-Im Bank operated on a self-sustaining basis using
program revenue to fund current year administrative expenses and program costs.
During FY 2011, Ex-Im Bank collected $701.1 million of receipts in excess of estimated
credit losses. Of these offsetting collections, $83.9 million was used to fund
administrative expenses, $0.2 million was used to fund subsidy expense and $617.0
million was retained and is available for obligation until September 30, 2014.

During FY 2010, Ex-Im Bank collected $479.4 million of receipts in excess of estimated
credit losses. Of these offsetting collections, $88.9 million was used to fund
administrative expenses and statutory guidelines allowed $115.5 million to be retained,
and is available for obligation until September 30, 2013. In FY 2011, $275.0 million of
the FY 2010 offsetting collections were rescinded. FY 2011 and FY 2010 program costs
were obligated from available prior year budget authority.

Administrative costs are the costs to administer and service Ex-Im Bank's entire credit
portfolio. The program costs are obligated to cover the estimated subsidy costs at the
time loans, guarantees and insurance are committed. As the loans are disbursed, or
when the insured or guaranteed event has taken place (generally when the related
goods are shipped), the obligated amounts are used to cover the estimated subsidy
costs related to the disbursements and shipments. The portion of the obligated amounts
related to Ex-Im Bank's lending programs is used to partially fund the loan
disbursements, while the portions related to Ex-Im Bank's guarantee and insurance
programs are invested in an interest-bearing account with the U.S. Treasury. Prior to
loan disbursement or the insured or guaranteed event, all of the appropriated funds and
offsetting collections are held in a non-interest-bearing U.S. Treasury account.

Allowance for Loss
The process by which Ex-Im Bank determines its allowance for loss for each fiscal year
involves assessing the repayment risk of the credit, which includes both commercial and
political risk factors, then calculating the loss reserve based on the percentage of loss
associated with the risk level assigned to the credit.

Sovereign risk is associated with an obligor that conveys the full faith and credit of its
country. To rate sovereign obligors, Ex-Im Bank relies on the risk levels assigned to
sovereign countries by ICRAS.

Non-sovereign obligors are divided into four categories for risk assessment purposes:
(1) obligors in workout status; (2) obligors rated by third-party rating agencies, such as,
Standard & Poor’s and Moody’s; (3) obligors not rated but publicly traded on local
exchanges; and (4) obligors neither rated nor publicly traded on local exchanges.


                                              9
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2011 and Year Ended September 30, 2010


After the political and commercial risks of the transaction are assessed, the transaction
is assigned a risk rating based on the standard ICRAS classification. A major
determinant of the risk rating is the sovereign-risk rating of the country in which the
obligor is located. Credit enhancements such as the availability of liens and off-shore
escrow accounts are taken into account.

For pre-credit-reform, nonimpaired loans receivable and guarantees, Ex-Im Bank
determines the allowance using historical default and recovery rates. The allowance for
losses on this exposure is calculated using the credit loss estimate method. Consistent
with industry practice in the private sector, this is an estimate of the loss expected due to
credit risk and does not include non-credit factors that are included in the fair-market
value method.

Loss reserves on pre-credit-reform impaired credits are determined using the fair-value
method. Ex-Im Bank generally considers a credit impaired if it meets one or more of the
following: (1) delinquent loans and claims with an amount of $50,000 or more past due
at least 90 days, (2) rescheduled loans and rescheduled claims, or (3) nondelinquent
loans and claims above a certain risk rating.

The allowance for losses for credit-reform loans, guarantees and insurance are
determined by the credit loss calculated at authorization and subsequent adjustments
made to the allowance as a result of the annual re-estimate.

Credit Loss Re-Estimate
Because financial and economic factors affecting the repayment prospects change over
time, the net estimated credit loss of the outstanding balance of loans, guarantees and
insurance is re-estimated annually in accordance with OMB guidelines and SFFAS 18.
This re-estimate indicates the appropriate balance necessary in the financing accounts
to ensure sufficient funds to pay future estimated claims.

Ex-Im Bank uses its actual historical default and recovery rates to calculate the re-
estimated future credit losses. In the event that the balance in the financing accounts
exceeds the re-estimate level, the difference will not be needed to cover future estimated
claims and will be returned to the U.S. Treasury. In the event that the balance in the
financing accounts is less than the re-estimate level, the FCRA provides that the
difference will be transferred to Ex-Im Bank from a general appropriation account
authorized for this purpose.

Every year, Ex-Im Bank re-evaluates the methods used for calculating the reserves
needed to cover expected losses. The Bank uses historical experience to estimate the
probability of default as well as the loss given default. The probability of default (PD) is
the likelihood that a transaction would go into default where the loss given default (LGD)
gives the estimated loss, net of recoveries and expenses, if a default occurred.
Multiplying PD times LGD provides expected loss factors across programs and budget
cost level (BCL) categories. Ex-Im Bank uses recent historical loss experience and other
factors in developing the predictor interval for the probablility of default.




                                             10
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2011 and Year Ended September 30, 2010

As of September 30, 2011, the re-estimate of the credit loss of the outstanding balances
of FY 1992 through FY 2011 commitments indicated that a net of $102.2 million of
additional funds were needed in the financing accounts, mostly to cover funding costs on
direct loans, which had exceeded original budgeted estimates. This total is included in
the Receivable From the Program Account and will be received from the U.S. Treasury
in FY 2012.

As of September 30, 2010, a re-estimate of the credit loss of the exposure of FY 1992
through FY 2010 commitments indicated that of the balances in the financing accounts,
the net amount of $36.4 million was no longer needed to cover commitments and was
due to the U.S. Treasury. This amount is included in the Accounts Payable to the U.S.
Treasury on the Balance Sheet.

Direct Loans
Ex-Im Bank's loans receivable, as shown on the Balance Sheet, are net of an allowance
for loan losses.

To calculate the allowance for loan losses for direct loans obligated prior to FY1992,
each of the 11 risk levels is identified with a loss percentage to determine the overall
allowance for credit losses as described above. In addition, certain credits and
capitalized interest included in gross loans receivable are reserved at 100 percent. At
September 30, 2011, and September 30, 2010, capitalized interest on credits obligated
prior to FY 1992 was $142.1 million and $218.2 million, respectively. The total allowance
for direct loans obligated prior to FY 1992, including capitalized interest, equaled 72.2
percent and 76.0 percent, respectively, of gross loans and interest receivable.

The allowance for loss calculated for direct loans obligated since the commencement of
FY 1992 equals the amount of credit loss incurred to support the loan obligation. The
credit loss is the amount of loss estimated to be incurred on the transaction, as
previously described. At September 30, 2011, and September 30, 2010, the allowance
for loan losses on credit-reform credits equaled 14.9 percent and 20.4 percent,
respectively, of the outstanding loans and interest receivable balance.

At September 30, 2011, and September 30, 2010, the allowance for both pre-credit-
reform and credit-reform loans equaled 18.7 percent and 25.7 percent, respectively, of
the total loans and interest receivable.

The outstanding balances related to rescheduled installments included in loans
receivable at September 30, 2011 and September 30, 2010, were $748.6 million and
$1,154.2 million, respectively. No loan principal installments were rescheduled in FY
2011 and FY 2010. Loan installments of interest rescheduled in FY 2011 and FY 2010
were $19.5 million and $7.1 million, respectively. The interest rate on rescheduled loans
is generally a floating rate of interest, which is 50.0 basis points over the six-month U.S.
Treasury rate.

The net balance of loans receivable at September 30, 2011, and September 30, 2010,
consists of the following:




                                             11
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2011 and Year Ended September 30, 2010

                                     Loans                    Allowance      Value of Assets
                                   Receivable   Interest       for Loan         Related to
FY 2011 (in millions)                Gross     Receivable       Losses      Direct Loans, Net
Loans Obligated Prior to FY 1992        $478.9       $59.8         ($388.8)             $149.9
Loans Obligated After FY 1991          7,630.8        69.7        (1,149.4)            6,551.1
    Total                             $8,109.7      $129.5      ($1,538.2)            $6,701.0


                                      Loans                  Allowance     Value of Assets
                                    Receivable    Interest    for Loan        Related to
FY 2010 (in millions)                 Gross      Receivable    Losses     Direct Loans, Net
Loans Obligated Prior to FY 1992         $574.9        $49.0     ($474.0)             $149.9
Loans Obligated After FY 1991            5,872.1        56.7    (1,210.0)            4,718.8
    Total                               $6,447.0      $105.7 ($1,684.0)             $4,868.7


(in millions)                                                      FY 2011          FY 2010
Direct Loans Disbursed During Year (Post-1991)                     $2,589.7         $2,120.0



B. Program Cost and Re-Estimate Expense for Direct Loans by Component

The table below discloses the interest, defaults, fees and re-estimate amounts
associated with program cost disbursed in the current fiscal year on loan authorizations
made in the current and prior fiscal years and the current year loss re-estimate.

 (in millions)                                                          FY 2011        FY 2010
 Interest                                                               ($278.4)       ($178.4)
 Defaults                                                                   103.3          29.4
 Fees and Other Collections                                               (230.9)        (89.5)
    Total                                                                (406.0)        (238.5)

 Net Re-estimate – Principal                                               382.7           355.4
 Net Re-estimate – Interest                                                136.6           124.7
   Total Net Re-estimate                                                   519.3           480.1

 Total Direct Loan Program Cost & Re-Estimate Expense                     $113.3         $241.6




                                            12
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2011 and Year Ended September 30, 2010

C. Program Cost Rates for Direct Loans by Program and Component

The program cost rates disclosed below relate to the percentage of program cost
authorized in the current year on loan authorizations made in the current fiscal year.
Because these rates only pertain to authorizations from the current year, these rates
cannot be applied to loan disbursements in the current reporting year to yield the
program cost, which could result from disbursements of loans from both current and
prior-years.

                                                                    FY 2011        FY 2010
  Interest                                                           (6.7)%        (12.2)%
  Defaults                                                             3.6 %          4.8%
  Fees and Other Collections                                          (9.2)%       (11.5)%
     Total                                                          (12.3)%        (18.9)%


D. Schedule for Reconciling Direct Loan Allowance Balances

The table below discloses the components of the direct-loan allowance.

  (in millions)                                                     FY 2011          FY 2010
  Post-1991 Direct Loans
  Beginning Balance of the Allowance Account                        $1,210.0             $870.7

   Current Year Program Cost                                          (406.0)            (237.8)
    Modifications                                                           -              (0.7)
        Subtotal Program Cost                                         (406.0)            (238.5)
       (see Note 4B for Component Breakdown)

   Fees Received                                                        200.1              106.9
   Loans Written Off                                                  (290.9)             (11.1)
   Program Cost Allowance Amortization                                  197.3              217.1
   Miscellaneous Recoveries and Costs                                 (280.4)            (215.2)
    Ending Balance Before Re-estimate                                   630.1              729.9

   Re-estimate                                                         519.3           480.1
  Ending Balance of the Allowance Account                           $1,149.4        $1,210.0

Program cost allowance amortization is calculated, as required by SFFAS 18,
“Amendments to Accounting Standards for Direct Loans and Loan Guarantees,” as the
difference between interest revenue and interest expense.




                                               13
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2011 and Year Ended September 30, 2010

E. Defaulted Guaranteed Loans

The allowance for defaulted guaranteed loans is calculated using the fair-market value
method as described above. Capitalized interest included in gross defaulted guaranteed
loans receivable is reserved at 100 percent. At September 30, 2011 and September 30,
2010, capitalized interest on pre-credit reform defaulted guaranteed loans was $37.4
million and $138.9 million, respectively. At September 30, 2011 and September 30,
2010, capitalized interest on credit reform defaulted guaranteed loans was $122.8 million
and $394.8 million, respectively. The total allowance equaled 78.1 percent and 81.1
percent of gross defaulted guaranteed loans and interest receivable at September 30,
2011, and September 30, 2010, respectively.



                                    Defaulted                                  Value of Assets
                                   Guaranteed                                    Related to
                                     Loans         Interest      Allowance        Defaulted
                                   Receivable,    Receivable      for Loan      Guaranteed
FY 2011 (in millions)                Gross                         Losses        Loans, Net
Defaulted Guaranteed Loans
  Obligated Prior to FY 1992              $93.5            $-        ($73.8)             $19.7
  Obligated After FY 1991               1,584.1            1.1     (1,237.7)             347.5
        Total                          $1,677.6           $1.1    ($1,311.5)            $367.2


                                   Defaulted                                   Value of Assets
                                  Guaranteed                                     Related to
                                    Loans          Interest      Allowance        Defaulted
                                  Receivable,     Receivable      for Loan      Guaranteed
FY 2010 (in millions)               Gross                          Losses        Loans, Net
Defaulted Guaranteed Loans
  Obligated Prior to FY 1992            $203.0           $0.1       ($176.9)            $26.2
  Obligated After FY 1991              2,115.2            1.3      (1,705.2)            411.3
        Total                         $2,318.2           $1.4     ($1,882.1)           $437.5




                                           14
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2011 and Year Ended September 30, 2010

F. Guaranteed Loans & Insurance

Ex-Im Bank is exposed to credit loss with respect to the amount of outstanding
guaranteed loans and insurance policies in the event of nonpayment by obligors under
the agreements. The commitments shown below are agreements to lend monies and
issue guarantees and insurance as long as there is no violation of the conditions
established in the credit agreement.

      (in millions)                                                    FY 2011       FY 2010
      Outstanding Principal of Guaranteed Loans and Insurance,
           Face Value                                                $50,288.8     $46,235.4
      Undisbursed Principal of Guaranteed Loans and Insurance,
           Face Value                                                  20,453.2     15,460.0
      Total Principal of Guaranteed Loans and Insurance,
           Face Value                                                $70,742.0     $61,695.4


      Amount of Principal Guaranteed and Insured                     $70,742.0     $61,695.4


      Guaranteed Loans and Insurance Disbursed During Year,
          Face Value                                                 $17,892.9     $19,065.1
      Guaranteed Loans and Insurance Disbursed During Year,
          Amount Guaranteed                                           $17,892.9    $19,065.1



G. Liability for Loan Guarantees and Insurance

      (in millions)                                                    FY 2011      FY 2010
      Liability for Losses
      On Pre-1992 Guarantees and Insurance                                   $-         $1.2
      On Post-1991 Guarantees and Insurance                             1,219.5      1,418.4
         Total Liabilities for Loan Guarantees and Insurance           $1,219.5     $1,419.6

Ex-Im Bank has authorized guarantee transactions denominated in a foreign currency
during FY 2011 totaling $1,896.3 million, and authorized $1,529.3 million during FY
2010, as calculated at the exchange rate at the time of authorization. Ex-Im Bank adjusts
the allowance for all transactions denominated in a foreign currency using the various
foreign-currency exchange rates at the end of the fiscal year.




                                           15
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2011 and Year Ended September 30, 2010

H. Program Cost and Re-Estimate Expense for Loan Guarantees and Insurance by
    Component

The table below discloses defaults, fees and re-estimate amounts associated with the
program cost disbursed in the current year on loan guarantee and insurance
authorizations made in the current and prior fiscal years and the current year loss re-
estimate. The total program cost also includes modifications made on these
authorizations.

      (in millions)                                                     FY 2011       FY 2010
      Defaults                                                           $549.8        $385.6
      Fees and Other Collections                                         (792.3)       (605.3)
         Total                                                           (242.5)       (219.7)
      Net Re-estimate – Principal                                        (312.5)           (488.0)
      Net Re-estimate – Interest                                         (104.6)           (210.7)
        Total Net Re-estimate                                            (417.1)           (698.7)

        Total Loan Guarantee and Insurance Program Cost and             ($659.6)          ($918.4)
         Re-Estimate Expense


I. Program Cost Rates for Loan Guarantees and Insurance by Component

The program cost rates disclosed below relate to the percent of program cost authorized
in the current fiscal year on loan guarantee and insurance authorizations made in the
current fiscal year. Because these rates only pertain to authorizations from the current
year, these rates cannot be applied to the guarantees of loans disbursed during the
current reporting year to yield the program cost, which could result from disbursements
of loans from both current and prior years.

                                                                        FY 2011     FY 2010
      Defaults                                                            2.1%        1.3%
      Fees and Other Collections                                         (4.5)%      (4.0)%
        Total                                                            (2.4)%      (2.7)%




                                            16
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2011 and Year Ended September 30, 2010

J. Schedule for Reconciling the Allowance for Loan Guarantee Balances

The table below discloses the components of the allowance for loan guarantees.

(in millions)                                               FY 2011      FY 2010
Post-1991 Loan Guarantees
Beginning Balance of the Allowance Account                  $1,418.4     $2,229.7

Current Year Program Cost                                    (242.7)      (218.0)
 Modifications                                                   0.2        (1.7)
       Subtotal Program Cost                                 (242.5)      (219.7)
     (See Note 4H for Component Breakdown)
 Fees Received                                                 464.1        328.4
 Claim Expenses and Write-Offs                                 (22.0)     (307.0)
 Interest Accumulation                                           51.7        88.5
 Other                                                         (33.1)        (2.8)
   Ending Balance Before Re-estimate                         1,636.6      2,117.1
Re-estimate                                                  (417.1)      (698.7)
   Ending Balance of the Allowance Account                  $1,219.5     $1,418.4


K. Administrative Expense

     (in millions)                                                      FY 2011      FY 2010
     Total Administrative Expense                                         $91.1        $90.9




                                          17
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2011 and Year Ended September 30, 2010

L. Allowance and Exposure Summary


(in millions)                                                            FY 2011     FY 2010
Pre-Credit-Reform Allowance
Allowance for Loan Losses                                                   $388.8         $474.0
Allowance for Defaulted Guarantees                                           73.8          176.9
Liability for Outstanding Loan Guarantees                                     -              1.2
              Total Pre-Credit-Reform Allowance                             462.6          652.1

Credit-Reform Allowance
Allowance for Loan Losses                                                  1,149.4        1,210.0
Allowance for Defaulted Guarantees and Insurance                           1,237.7        1,705.2
Liability for Loan Guarantees and Insurance                                1,219.5        1,418.4
Liability Related to Undisbursed Loans, Guarantees, and Insurance              -            132.9
              Total Credit-Reform Allowance                                3,606.6        4,466.5

Total Loan-Loss Allowance                                                  1,538.2        1,684.0
Total Allowance for Guarantees, Insurance and Undisbursed Loans            2,531.0        3,434.6
           Total Allowance                                                $4,069.2       $5,118.6

Total Exposure                                                           $89,152.0   $75,213.9
Percent Allowance to Exposure                                                 4.6%        6.8%


5. Receivable from Program Account

The Receivable from the Program Account was $789.3 million at September 30, 2011,
which represents the amount of the upward loss re-estimate. Starting in FY 2011,
undisbursed obligated program costs are no longer included in Receivable from Program
Account and Payable to the Financing Account. The balance of $842.8 million at
September 30, 2010 represents undisbursed obligated program costs and the amount of
the upward loss re-estimate. The receivable is fully offset by the Payable to the
Financing Account. These amounts are payable to and receivable from different Ex-Im
Bank accounts at the U.S. Treasury and net to zero.


6. Nonaccrual of Interest

The weighted-average interest rate on Ex-Im Bank's loan and rescheduled claim
portfolio at September 30, 2011, was 3.37 percent (3.58 percent on performing loans
and rescheduled claims). The weighted-average interest rate on Ex-Im Bank's loan and
rescheduled claim portfolio at September 30, 2010, was 3.27 percent (3.96 percent on
performing loans and rescheduled claims). Interest income is recognized when collected
on nonrescheduled claims.




                                                  18
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2011 and Year Ended September 30, 2010

Generally, the accrual of interest on loans and rescheduled claims is discontinued when
the credit is delinquent for 90 days. Ex-Im Bank had a total of $447.1 million and $64.2
million of loans and rescheduled claims, respectively, in nonaccrual status at September
30, 2011. Ex-Im Bank had $824.2 million and $463.5 million of loans and rescheduled
claims, respectively, in nonaccrual status at September 30, 2010. Had these credits
been in accrual status, interest income would have been $27.7 million higher as of
September 30, 2011 (amount is net of interest received of $0.4 million), and $62.9
million higher in FY 2010 (amount is net of interest received of $0.5 million).

7. Statutory Limitations on Lending Authority

Under provisions of the Export-Import Bank Act, as amended in FY 2006, Ex-Im Bank’s
statutory authority currently is limited to $100.0 billion of loans, guarantees and
insurance outstanding at any one time. At September 30, 2011, and September 30,
2010, Ex-Im Bank's statutory authority used was as follows:


           (in millions)                FY 2011           FY 2010
           Outstanding Guarantees       $47,844.0         $43,857.8
           Outstanding Loans              8,109.7           6,447.0
           Outstanding Insurance          2,444.8           2,377.6
           Outstanding Claims             1,677.6           2,318.2
             Total Outstanding           60,076.1          55,000.6

           Undisbursed Guarantees        13,585.1           7,971.1
           Undisbursed Loans              8,622.7           4,753.3
           Undisbursed Insurance          6,868.1           7,488.9
            Total Undisbursed            29,075.9          20,213.3

            Total Exposure              $89,152.0         $75,213.9




Transactions can be committed only to the extent that budget authority is available to
cover such costs. For FY 2011 and FY 2010, Congress placed no limit on the total
amount of loans, guarantees and insurance that could be committed in those years,
provided that the statutory authority established by the Export-Import Bank Act was not
exceeded.

During FY 2011, Ex-Im Bank committed $6,322.9 million for direct loans, $26,404.2
million for guarantees and insurance, using $68.1 million of budget authority and no tied
aid funds. During FY 2010, Ex-Im Bank committed $4,260.6 million for direct loans,
$20,207.2 million for guarantees and insurance, using $42.9 million of budget authority
and no tied aid funds.




                                           19
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2011 and Year Ended September 30, 2010

For financial statement purposes, Ex-Im Bank defines exposure as the authorized
outstanding and undisbursed principal balance of loans, guarantees, and insurance. It
also includes the unrecovered balance of payments made on claims that were submitted
to Ex-Im in its capacity as guarantor or insurer under the export guarantee and
insurance programs. Exposure does not include accrued interest or transactions pending
final approval. This corresponds to the way activity is charged against the Bank’s overall
$100 billion lending limit imposed by Section 6(a)(2) of Ex-Im Bank’s Charter.

Working Capital Guarantees may be approved for a single loan or a revolving line of
credit, with an availability generally of one year. Guaranteed lenders do not report
activity to Ex-Im, the entire credit is assumed to be “disbursed” when the fee is paid to
Ex-Im. The credit is recorded as repaid in one installment six months after the expiry
date of the credit unless the Controller’s office is notified before that time that a claim
has been paid. Under the assumption that the exporter is using the credit up to the end
of the expiry period, six months provides sufficient time for the guaranteed lender to
report defaults to Ex-Im in the event that the exporter does not repay the credit. If a claim
is paid, the remaining outstanding balance of the credit associated with the claim is
reduced to zero. Exposure is then reflected as an unrecovered claim.

Since there is typically a delay in reporting shipments under the insurance program,
undisbursed balances remain on the books for 120 days after the expiry date to allow for
the posting of shipments that took place within the period covered by the policy but were
reported after the expiry date. These unreported shipments pose some liability in the
form of claims that have been incurred but not yet reported (IBNR). Leaving the policy
open past the expiry date provides a reserve for IBNR.

8. Concentration of Risk

Ex-Im Bank support is available to U.S. businesses exporting to countries around the
world. The Bank’s portfolio is concentrated more heavily in some regions, industries and
obligors than others. In reviewing each transaction, Ex-Im Bank considers the option of
using various credit enhancements to support its standard for a reasonable assurance of
repayment. Various types of collateral, including liens on commercial aircraft, may or
may not be appropriate or available in support of a credit.

The volatility in commodity prices, the fluctuation in currency exchange rates, and the
tightening of credits markets may have an impact on borrowers’ ability to service their
obligations. Ex-Im Bank closely monitors the portfolio and makes appropriate rating
adjustments and loss reserve adjustments as necessary.

The following tables summarize Ex-Im Bank’s total exposure by geographic region as of
September 30, 2011 and September 30, 2010.




                                             20
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2011 and Year Ended September 30, 2010

Total Exposure:

2011 (in millions)
Region                            Amount       Percentage
Asia                              $32,832.3         36.9%
Latin America & Caribbean          19,728.3         22.1%
Europe                             10,772.7         12.1%
North America                       9,352.9         10.5%
Oceania                             5,372.5          6.0%
Africa                              4,832.5          5.4%
All Other                           6,260.8          7.0%
 Total                            $89,152.0        100.0%


2010 (in millions)
Region                            Amount       Percentage
Asia                              $27,655.2         36.8%
Latin America & Caribbean          15,606.3         20.7%
Europe                              7,907.3         10.5%
North America                       7,773.9         10.3%
Africa                              4,949.4          6.6%
Oceania                             4,601.9          6.1%
All Other                           6,719.9          9.0%
 Total                            $75,213.9        100.0%



The following tables summarize Ex-Im Bank’s total exposure by industry as of
September 30, 2011 and September 30, 2010.


2011 (in millions)
Industry                         Amount        Percentage
 Air Transportation               $43,014.5          48.2%
 Manufacturing                     12,499.8          14.0%
 Oil & Gas                         10,916.6         12.2%
 Power Projects                     6,818.8           7.6%
 All Other                         15,902.3          18.0%
  Total                           $89,152.0        100.0%


2010 (in millions)
Industry                         Amount        Percentage
 Air Transportation               $35,370.6          47.0%
 Oil and Gas                       10,408.5         13.8%
 Manufacturing                      8,904.7          11.8%
 Power Projects                     4,599.1           6.1%
 All Other                         15,931.0          21.3%
  Total                           $75,213.9        100.0%




                                          21
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2011 and Year Ended September 30, 2010

At September 30, 2011 and September 30, 2010, Ex-Im Bank’s five largest (public and
private) obligors made up 21.0 percent and 23.0 percent of the credit portfolio,
respectively.

2011 (in millions)
Obligor                                    Amount    Percentage
Pemex                                     $5,522.5        6.2%
Various Government Entities of India       3,742.4        4.2%
Ryanair Ltd.                               3,524.4        4.0%
Papua New Guinea Lng Global Comp.          3,000.0        3.4%
Refineria De Cartagena S.A.                2,843.6        3.2%
All Other                                 70,519.1       79.0%
Total                                    $89,152.0      100.0%



2010 (in millions)
Obligor                                  Amount Percentage
Pemex                                   $5,425.4     7.2%
Ryanair Ltd.                             3,789.1     5.0%
Papua New Guinea Lng Global Comp.        3,000.0     4.0%
Various Government Entities of India     2,674.0     3.6%
Emirates Airlines                        2,396.2     3.2%
All Other                               57,929.2    77.0%
Total                                  $75,213.9   100.0%

The largest exposures by program by country are as follows as of September 30, 2011
and September 30, 2010:

Loans Outstanding and Undisbursed:

2011 (in millions)
Country                                  Amount    Percentage
Colombia                                  $2,343.6      14.1%
Papua New Guinea                           2,200.0     13.1%
Mexico                                     1,880.9     11.2%
India                                      1,370.0       8.2%
All Other                                  8,937.9     53.4%
Total                                    $16,732.4    100.0%


2010 (in millions)
Country                                  Amount    Percentage
Papua New Guinea                          $2,200.0     19.6%
Mexico                                     1,498.1     13.4%
Saudi Arabia                               1,332.3     11.9%
Brazil                                       751.1      6.7%
All Other                                  5,418.8     48.4%
Total                                    $11,200.3    100.0%




                                           22
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2011 and Year Ended September 30, 2010

Subrogated Claims:

2011 (in millions)
Country                                     Amount    Percentage
Mexico                                      $361.1        21.5%
Kazakhstan                                    141.9        8.5%
Indonesia                                     114.9        6.8%
Brazil                                         63.5        3.8%
All Other                                     996.2       59.4%
Total                                      $1,677.6      100.0%


2010 (in millions)
Country                                 Amount    Percentage
Congo                                   $404.3        17.4%
Mexico                                    403.6       17.4%
Indonesia                                 337.1       14.5%
Serbia                                    124.3        5.4%
All Other                               1,048.9       45.3%
Total                                  $2,318.2      100.0%


Guarantees and Insurance:

2011 (in millions)
Country                                 Amount    Percentage
Mexico                                 $6,090.8        8.6%
India                                   5,631.1        8.0%
Ireland                                 4,315.2        6.1%
Turkey                                  3,747.0        5.3%
All Other                              50,957.9       72.0%
Total                                 $70,742.0      100.0%


2010 (in millions)
Country                                 Amount    Percentage
Mexico                                 $6,411.5       10.4%
India                                   4,560.6        7.4%
Ireland                                 4,163.0        6.7%
United Arab Emirate                     3,177.0        5.1%
All Other                              43,383.3       70.4%
Total                                 $61,695.4      100.0%


9. Other Assets

     (in millions)                                                 FY 2011    FY 2010
     Commitment Fee Receivables                                        $8.9       $9.7
     Other                                                              2.3       22.6
         Total Other Assets                                          $11.2      $32.3


                                     23
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2011 and Year Ended September 30, 2010


Commitment fees are charged on the undisbursed, unexpired balance of loans and
certain guarantees. The Other category includes miscellaneous receivables, including
assets acquired through claims recovery.


10. Liabilities Not Covered by Budgetary Resources

Liabilities not covered by budgetary resources are included in Other Liabilities on the
Balance Sheet as follows:

      (in millions)                                                       FY 2011         FY 2010
       Accrued Unfunded Annual Leave                                         $3.6             $3.5


Ex-Im Bank's liability to employees for accrued annual leave, included in other liabilities,
was $3.6 million as of September 30, 2011 and $3.5 million as of September 30, 2010.
The liability will be paid from future administrative expense budget authority.

11. Debt

Ex-Im Bank’s outstanding borrowings come from two sources: direct borrowing from the
U.S. Treasury, and the assumption of repayment obligations of defaulted guarantees
under Ex-Im Bank’s guarantee program via payment certificates.

Ex-Im Bank’s total debt at September 30, 2011, and September 30, 2010, is as follows:


  (in millions)                                            FY 2011                 FY 2010
  U.S. Treasury Debt
    Beginning Balance                                      $7,254.5               $3,805.2
    New Borrowings                                         1,742.0                4,200.1
    Repayments                                              (717.2)                (750.8)
     Ending Balance                                        $8,279.3               $7,254.5

  Debt Held by the Public
   Beginning Balance                                          $78.8                  $82.7
   New Borrowings                                               5.7                   15.9
   Repayments                                                 (20.2)                 (19.8)
    Ending Balance                                            $64.3                  $78.8

  Total Debt                                               $8,343.6               $7,333.3


Ex-Im Bank had $8,279.3 million of borrowings outstanding with the U.S. Treasury at
September 30, 2011, and $7,254.5 million at September 30, 2010, with a weighted-
average interest rate of 5.10 percent at September 30, 2011, and 5.32 percent at
September 30, 2010.




                                             24
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2011 and Year Ended September 30, 2010

U.S. Treasury borrowings are repaid primarily with the repayments of medium-term and
long-term loans. To the extent repayments on the underlying loans, combined with
commitment and exposure fees and interest earnings received on the loans, are not
sufficient to repay the borrowings, appropriated funds are available to Ex-Im Bank
through the re-estimation process for this purpose. Accordingly, U.S. Treasury
borrowings do not have a set repayment schedule; however, the full amount of the
borrowings is expected to be repaid by FY 2032.

Payment certificates are issued by Ex-Im Bank in exchange for the foreign obligor’s
original note that was guaranteed by Ex-Im Bank on which Ex-Im Bank has paid a claim
and carries the same repayment term and interest rate as the foreign obligor’s note.
Payment certificates are backed by the full faith and credit of the U.S. government and
are freely transferable.

Outstanding payment certificates at September 30, 2011, and September 30, 2010,
were $64.3 million, and $78.8 million, respectively. Maturities of payment certificates at
September 30, 2011, follow:

                               (in millions)
                               Fiscal Year             Amount
                               2012                           $2.5
                               2013                           2.5
                               2014                           8.6
                               2015                           0.6
                               Thereafter                    50.1
                               Total                         $64.3

The weighted-average interest rate on Ex-Im Bank's outstanding payment certificates at
September 30, 2011, and September 30, 2010, was 4.06 percent and 4.16 percent,
respectively.

12. Other Liabilities

(in millions)                                                           FY 2011    FY 2010
Current
   Funds Held Pending Application                                          $33.1      $16.9
   Administrative Expenses Payable                                           8.6        9.7
   Miscellaneous Accrued Payables                                            1.9        2.2
Non-Current
   Deferred Revenue                                                        833.1      536.8
  Total Other Liabilities                                                 $876.7     $565.6

The $833.1 million in FY 2011 and the $536.8 million in FY 2010 represent deferred
revenue in the form of offsetting collections which is available to cover administrative
expenses and program costs.




                                               25
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2011 and Year Ended September 30, 2010

13. Leases

Ex-Im Bank’s headquarters office space is leased from the General Services
Administration through the Public Buildings Fund. Lease expenses, included in
administrative expenses, were $6.3 million in FY 2011 and $6.4 million in FY 2010. The
lease expires on December 31, 2014, at which time it will be renegotiated. Future
payments under the lease are as follows:


                            (in millions)
                            Fiscal Year             Amount
                            2012                        $6.2
                            2013                         6.2
                            2014                         6.2
                            2015                         1.6
                            Total                      $20.2



14. Commitments and Contingencies

Pending Litigation
As of September 30, 2011, Ex-Im Bank was named in several legal actions, virtually all
of which involved claims under the guarantee and insurance programs. It is not possible
to predict the eventual outcome of the various actions; however, it is management's
opinion that these claims will not result in liabilities to such an extent that they would
materially affect the financial position or results of operations of Ex-Im Bank.

Project Finance
In project-finance transactions, Ex-Im Bank’s support during the construction period is
generally in the form of a direct credit or comprehensive guarantee to the commercial
lender. At the end of the construction period, the borrower in some cases has the
opportunity to convert the commercial guaranteed financing to an Ex-Im Bank direct
loan. As of September 30, 2011and September 30, 2010, Ex-Im Bank had $272.8 million
and $331.2 million respectively of such contingent loan commitments outstanding.

Take Out Option
Ex-Im Bank offers a “take-out” option available on all U.S. dollar, floating rate medium-
term and long-term guarantees. The option allows banks to transfer the loan to Ex-Im
following origination for a set of predetermined fees. As of September 30, 2011 and
September 30, 2010, Ex-Im Bank had $1,928.7 million and $1,703.5 million respectively
of such contingent loan commitments outstanding.




                                            26
                           Export-Import Bank of the United States
                              Notes to the Financial Statements
          For the Year Ended September 30, 2011 and Year Ended September 30, 2010

      15. Disclosures Related to the Statements of Net Costs

      Ex-Im Bank’s Statements of Net Costs lists the costs and revenues associated with each
      of the Bank’s lines of business, namely the loan, guarantee and insurance programs.
      The intragovernmental and public costs and revenues associated with each program,
      and administrative expenses, are disclosed below. Ex-Im Bank does not allocate
      administrative expenses by program.

(in millions)                                                                        Administrative
                                             Loans        Guarantees    Insurance      Expenses       Total

For the Year Ended September 30, 2011
Intragovernmental Costs                       $439.0           $-           $-               $6.5      $445.5
Public Costs                                   528.2           (44.1)       21.1             84.6       589.8
  Total Costs                                  967.2           (44.1)       21.1             91.1     1,035.3

Intragovernmental Revenue                      (139.1)         (49.7)        (2.0)            -        (190.8)
Public Revenue                                 (345.6)        (274.0)       (39.4)            -        (659.0)
   Total Revenue                               (484.7)        (323.7)       (41.4)            -        (849.8)

Liquidating Account Distribution of Income                                                               21.9

Net Excess of Program Costs Over Program (Revenue)                                                    $207.4


For the Year Ended September 30, 2010
Intragovernmental Costs                       $424.2           $-           $-               $6.8     $431.0
Public Costs                                    595.9         (355.9)       63.4             84.1      387.5
  Total Costs                                 1,020.1         (355.9)       63.4             90.9      818.5

Intragovernmental Revenue                      (177.9)         (69.3)        (2.2)            -        (249.4)
Public Revenue                                 (355.6)        (279.4)       (32.5)            -        (667.5)
   Total Revenue                               (533.5)        (348.7)       (34.7)            -        (916.9)

Liquidating Account Distribution of Income                                                               22.9

Net Excess of Program (Revenue) over Program Costs                                                     ($75.5)



      Intragovernmental costs include interest expense paid to the U.S. Treasury related to
      borrowings associated with the funding of credit-reform direct loans and administrative
      costs paid to other government agencies. Intragovernmental costs were $445.5 million in
      FY 2011 and $431.0 million in FY 2010. Intragovernmental revenues represent interest
      from the U.S. Treasury on cash balances in the credit-reform financing accounts.
      Intragovernmental revenue was $190.8 million in FY 2011 and $249.4 million in FY
      2010.




                                                     27
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2011 and Year Ended September 30, 2010

Ex-Im Bank public costs represent costs which the Bank incurs to support the business
programs. These costs are comprised primarily of the provision for loss on the loan and
guarantee portfolio, and administrative expenses paid to the public. Ex-Im Bank public
revenue represents income items which are generated as a result of operating the loan,
guarantee and insurance programs. This revenue primarily relates to the fee and interest
income on the outstanding credits. Ex-Im Bank net public costs totaled $589.8 million in
FY 2011 and $387.5 million in FY 2010. Public revenue totaled $659.0 million in FY
2011 and $667.5 million in FY 2010.

16. Disclosures Related to the Combined Statement of Budgetary Resources

Ex-Im Bank’s Combined Statements of Budgetary Resources disclose total budgetary
resources available to the Bank and the status of such resources at September 30,
2011, and September 30, 2010. Activity impacting budget totals of the overall U.S.
government budget is recorded in Ex-Im Bank’s Combined Statements of Budgetary
Resources budgetary accounts. Activity which does not impact budget totals is recorded
in Ex-Im Bank’s Combined Statements of Budgetary Resources nonbudgetary accounts.
As of September 30, 2011, the Bank’s resources in budgetary accounts totaled $2,085.1
million and $2,181.9 million in FY 2010. The Bank’s resources in nonbudgetary accounts
totaled $10,046.6 million as of September 30, 2011, and $8,112.8 million in FY 2010.

Adjustments to Beginning Balance of Budgetary Resources
Ex-Im Bank made no adjustments to the beginning budgetary resources during the
periods ended September 30, 2011, and September 30, 2010.

Apportionment Categories of Obligations Incurred
Ex-Im Bank funds are apportioned in Category B, which restricts the use of funds by
program. The amount of Category B apportionments that were obligated in FY 2011 and
FY 2010 totaled $9,649.4 million and $7,830.7 million, respectively.

Permanent Indefinite Appropriations
The FCRA requires an annual re-estimate of the credit loss allowance. In the event that
there is an increase in estimated defaults, there is permanent and indefinite budget
authority available for this purpose. In FY 2011, the Bank received $717.9 million of
permanent indefinite appropriations as a result of the FY 2010 re-estimate. In FY 2010,
the Bank received $1,121.1 million of permanent indefinite appropriations as a result of
the FY 2009 re-estimate.

Available Borrowing Authority and Terms of Borrowing
Ex-Im Bank in part relies on borrowings from the U.S. Treasury to help fund the Bank’s
loan program. U.S. Treasury borrowings are repaid primarily with the repayments of
medium-term and long-term loans. To the extent repayments on the underlying loans,
combined with commitment and exposure fees and interest earnings received on the
loans, are not sufficient to repay the borrowings, permanent and indefinite appropriated
funds are available to Ex-Im Bank through the re-estimation process for this purpose.
Accordingly, U.S. Treasury borrowings do not have a set repayment schedule; however,
the full amount of the borrowings is expected to be repaid by FY 2032.

For FY 2011 and FY 2010, Ex-Im Bank had $6,612.1 million and $5,131.0 million in new
borrowing authority with the U.S. Treasury, respectively.


                                           28
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2011 and Year Ended September 30, 2010


Unobligated Balances
Unobligated balances at September 30, 2011, and at the end of FY 2010 totaled
$2,482.3 million and $2,464.0 million, respectively. Of the $2,482.3 million, $957.5
million is available to cover program costs for new credits, $1,283.6 million represents
the amount in the guarantee and insurance financing account that is available to cover
future defaults, and $241.2 million is unavailable for new obligations.

Differences between Combined Statements of Budgetary Resources and Budget
of U.S. Government
There are no differences between the budgetary resources listed on Ex-Im Bank’s
statements and the budgetary resources found in the Budget of the U.S. government.

17. Reconciliation of Net Cost of Operations to Budget

The following schedule reconciles the Net Cost of Operations to the Bank’s budgetary
and financial accounting. The reconciliation illustrates the relationship between net
obligations derived from Ex-Im Bank’s budgetary accounts and the net cost of operations
derived from Ex-Im Bank’s proprietary accounts by identifying and explaining key
differences between the two numbers.




                                            29
                     Export-Import Bank of the United States
                        Notes to the Financial Statements
    For the Year Ended September 30, 2011 and Year Ended September 30, 2010

                                                                                For the Year      For the Year
                                                                                  Ended             Ended
                                                                               September 30,     September 30,
(in millions)                                                                      2011              2010
Resources Used To Finance Activities
Budgetary Resources Obligated
         Obligations Incurred                                                        $9,649.4          $7,830.7

         Less: Spending Authority from Offsetting Collections and Recoveries          3,387.8           3,574.7
         Net Obligations                                                              6,261.6           4,256.0
Other Resources
         Imputed Financing from Costs Absorbed by Others                                  3.5               3.7
Total Resources Used To Finance Activities                                           $6,265.1          $4,259.7

Resources Used To Finance Items Not Part of Net Cost of Operations
           Change in Budgetary Resources Obligated for Goods, Services, and
           Benefits Ordered but Not Yet Provided                                    ($4,054.4)         ($2,811.4)
           Resources That Fund Expenses in Prior Periods                               (717.9)          (1,121.1)

          Budgetary Offsetting Collections and Receipts That Do Not Affect
           Net Cost of Operations
                - Credit-Program Collections                                          2,588.1            2,903.6
          Resources That Finance the Acquisition of Assets                           (4,634.6)          (4,002.5)
          Distribution of Income                                                         21.9               22.9
Total Resources That Do Not Finance Net Cost of Operations                           (6,796.9)          (5,008.5)

Total Resources Used To Finance the Net Cost of Operations                            ($531.8)          ($748.8)

Components of the Net Cost of Operations That Will Not Require or
Generate Resources in the Current Period
Components Requiring or Generating Resources in Future Periods
         Allowance Amortization                                                        $357.4            $452.9
         Provision for Loss--Pre-Credit-Reform Credits                                    3.6             288.3
         Downward Re-estimate of Credit-Losses                                         (721.9)           (778.2)
         Upward Re-estimate of Credit-Losses                                            789.3             559.8
         Change in Receivables                                                         (213.7)           (266.6)
         Change in Payables                                                             427.4             427.7
Total Components Requiring or Generating Resources in Future Periods                    642.1             683.9

Components Not Requiring or Generating Resources
         Deferral Adjustments                                                            97.1              (10.6)
Total Components Not Requiring or Generating Resources                                   97.1              (10.6)


Total Components of Net Cost of Operations That Will Not Require or
Generate Resources in the Current Period                                               $739.2            $673.3

Net Excess of Program Costs Over Program (Revenue)                                     $207.4             ($75.5)




                                                      30
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2011 and Year Ended September 30, 2010

18. Related-Party Transactions

The financial statements reflect the results of contractual agreements with the Private
Export Funding Corporation (PEFCO). PEFCO, which is owned by a consortium of
private-sector banks, industrial companies and financial services institutions, makes
medium-term and long-term fixed-rate and variable-rate loans to foreign borrowers to
purchase U.S. made equipment when such loans are not available from traditional
private sector lenders on competitive terms. Ex-Im Bank’s credit and guarantee
agreement with PEFCO extends through December 31, 2020. Through its contractual
agreements with PEFCO, Ex-Im Bank exercises a broad measure of supervision over
PEFCO's major financial management decisions, including approval of both the terms of
individual loan commitments and the terms of PEFCO's long-term debt issues, and is
entitled to representation at all meetings of PEFCO's board of directors, advisory board
and exporters' council.

PEFCO has agreements with Ex-Im Bank which provide that Ex-Im Bank will (1)
guarantee the due and punctual payment of principal and interest on export loans made
by PEFCO and (2) guarantee the due and punctual payment of interest on PEFCO's
long-term secured debt obligations when requested by PEFCO. Such guarantees,
aggregating $5,252.6 million at September 30, 2011 ($4,319.0 million related to export
loans and $933.6 million related to secured debt obligations) and $5,122.1 million at
September 30, 2010 ($4,289.7 million related to export loans and $832.4 million related
to secured debt obligations), are included by Ex-Im Bank in the total for guarantee,
insurance and undisbursed loans and the allowance related to these transactions is
included in the Guaranteed Loan Liability on the Balance Sheets. Ex-Im Bank received
fees totaling $29.5 million in FY 2011 ($29.2 million related to export loans and $0.3
million related to secured debt obligations) and $29.6 million in FY 2010 ($29.4 million
related to export loans and $0.2 million related to secured debt obligations) for the
agreements, which are included in fee revenue on the Statements of Net Costs.

Ex-Im Bank has significant transactions with the U.S. Treasury. The U.S. Treasury,
although not exercising control over Ex-Im Bank, holds the capital stock of Ex-Im Bank
creating a related-party relationship between Ex-Im Bank and the U.S. Treasury.




                                           31
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2011 and Year Ended September 30, 2010

19. Contributions to Employee Retirement Systems

All of Ex-Im Bank's employees whose appointments have federal status are covered by
either the Civil Service Retirement System (CSRS) or the Federal Employees
Retirement System (FERS).

In FY 2011 and FY 2010, Ex-Im Bank withheld 7.0 percent of CSRS employees’ gross
earnings. Ex-Im Bank’s contribution was 7.0 percent of employees' gross earnings. This
sum was transferred to the CSRS fund from which this employee group will receive
retirement benefits.

For FERS, Ex-Im Bank withheld 0.8 percent of employees' gross earnings. Ex-Im Bank’s
contribution was 11.2 percent of employees' gross earnings in FY 2011 and FY 2010.
This sum was transferred to the FERS fund from which the employee group will receive
retirement benefits. An additional 6.2 percent of gross earnings, after pre-tax deductions
are withheld up to the 2011 and 2010 limit of $106,800; that sum plus matching
contributions by Ex-Im Bank are sent to the Social Security System from which the
FERS employee group will receive Social Security benefits.

FERS and CSRS employees may elect to participate in the Thrift Savings Plan (TSP).
CSRS and FERS employees may contribute up to $16,500 of gross earnings. In
addition, FERS employees receive an automatic 1 percent contribution from Ex-Im Bank.
Amounts withheld for FERS employees are matched by Ex-Im Bank up to 4 percent for a
maximum Ex-Im Bank contribution to the TSP of 5 percent.

Total Ex-Im Bank (employer) matching contributions to the TSP, CSRS and FERS for all
employees, included in administrative expenses, were approximately $6.1 million in FY
2011 and $5.7 million in FY 2010. Although Ex-Im Bank funds a portion of pension
benefits under the CSRS and FERS relating to its employees and makes the necessary
payroll withholdings for them, it has no liability for future payments to employees under
these programs and does not account for the assets of the CSRS and FERS, nor does it
have actuarial data with respect to accumulated plan benefits or the unfunded pension
liability relative to its employees. These amounts are reported by the OPM for the
Retirement Systems and are not allocated to the individual employers. The excess of
total pension expense over the amount contributed by Ex-Im Bank and its employees
represents the amount of pension expense which must be financed directly by OPM. Ex-
Im Bank recognizes an imputed cost and an imputed financing source, calculated using
cost factors supplied by OPM, equal to the excess amount.

OPM also accounts for the health and life insurance programs for current and retired
civilian federal employees. Similar to the accounting treatment afforded the retirement
programs, the actuarial data related to the health and life insurance programs is
maintained by OPM and is not available on an individual-employer basis. Ex-Im Bank
recognizes an imputed cost and an imputed financing source for the future cost of these
other retirement benefits (ORB) at the time the employee’s services are rendered. This
ORB expense is calculated using cost factors supplied by OPM and must be financed by
OPM.




                                            32
        Export-Import Bank of the United States




                   SECTION 4



MANAGEMENT’S DISCUSSION AND ANALYSIS
OF RESULTS OF OPERATIONS AND FINANCIAL
       CONDITION (UNAUDITED)
  Management’s Discussion and Analysis of
Results of Operations and Financial Condition

                 (UNAUDITED)




       For the Year Ended September 30, 2011
        And Year Ended September 30, 2010
                               Executive Summary

The Export-Import Bank of the United States (Ex-Im Bank or the Bank) is an
independent executive agency and a wholly-owned U.S. government corporation. Ex-Im
Bank is the official export-credit agency of the United States. Its mission is to support
U.S. jobs by facilitating the export of U.S. goods and services, by providing competitive
export financing, and ensuring a level playing field for U.S. goods and services in the
global marketplace. Ex-Im Bank does not compete with private sector lenders but
provides export financing products that fill gaps in trade financing. We assume credit and
country risks that the private sector is unable or unwilling to accept. We also help to level
the playing field for U.S. exporters by matching the financing that other governments
provide to their exporters. The Bank’s charter requires reasonable assurance of repayment
for the transactions it authorizes and the Bank closely monitors credit and other risks in
its portfolio.

Ex-Im Bank authorized $32,727.1 million of loans, guarantees, and insurance for FY
2011 in support of an estimated $41,305.1 million of U.S. export sales and of an
estimated 288,000 U.S. jobs. This is a 33.8 percent increase over authorizations for FY
2010 of $24,467.8 million and the highest level of authorizations in any fiscal year of the
Bank’s 77-year history. This change stems from an increase in demand driven primarily
by the lack of available private-sector liquidity, the Bank’s ability to respond to the
resulting financing gaps, and its implementation of a five-year strategic plan. Over the
past five fiscal years, annual authorizations have increased from $12,569.4 million to
$32,727.1 million (up 160.4 percent), in support of estimated U.S. export sales which
increased from $16,041.0 million to $41,305.1 million (up 157.5 percent).

The increase in activity has been accomplished with virtually no increase in staff. The
productivity contributed by each Ex-Im employee has significantly increased over the
past five years as measured by the dollar amount and number of authorizations. In FY
2011, the average dollar amount of authorizations per employee was $86.9 million, up
from $34.3 million in FY 2007, an increase of 153.3 percent. The average number of
authorizations per employee was 10.0 in FY 2011, up from 6.5 in FY 2007, an increase of
almost 54 percent. Ex-Im Banks credits these increases to its continuing focus on
streamlining its bank-wide operations as well as the commitment and dedication of its
employees.

In FY 2011 Ex-Im Bank had $701.1 million in offsetting collections and $479.4 million
in FY 2010. These funds are used to cover administrative and program costs. In FY
2011, $275.0 million was returned to the U.S. Treasury due to a rescission and the
remaining funds will be used to cover future program costs.




                                                                                           2
Ex-Im Bank reports under generally accepted accounting principles in the United States
applicable to federal agencies (government GAAP). Under government GAAP standards,
Ex-Im Bank’s net excess costs over revenue for Fiscal Year (FY) 2011 was $207.4
million and net excess revenue over cost for FY 2010 was $75.5 million. The increase in
net costs is the result of a significantly smaller downward re-estimate in guarantee loss
reserves in FY 2011, leading to much higher provision for credit loss in FY 2011 when
compared to FY 2010.

New small-business authorizations increased by 19.5 percent in FY 2011 and totaled
$6,037.3 million, representing 18.4 percent of total authorizations. These totals compare
to new small-business authorizations in FY 2010 that totaled $5,052.9 million
representing 20.7 percent of total authorizations. In FY 2011, the number of transactions
that were made available for the direct benefit of small-business exporters increased by
5.0 percent to 3,247 transactions (86.6 percent of total transactions), compared to 3,091
small-business transactions (87.5 percent of total transactions) in FY 2010. Due to the
continued financial crisis and the resulting credit crisis, private insurers discontinued
offering coverage to many of their previous customers. Small businesses were especially
hard hit as they often did not generate sufficient premium income to keep the private
insurers interested during these difficult times. Once they lost their private sector
insurance coverage, many of the small-business exporters turned to Ex-Im Bank for
insurance coverage.

Over the past five fiscal years, Ex-Im Bank’s direct support for the small-business sector
has increased from $3,190.2 million to $6,037.3 million. Of the total small-business
support, $5,424.2 million (89.8 percent) and $4,094.3 million (81.0 percent), in FY 2011
and FY 2010, respectively, is from working capital guarantees and export-credit
insurance authorizations.

Ex-Im Bank currently has exposure in over 171 countries throughout the world. Total
exposure increased by 18.5 percent to $89,152.0 million at September 30, 2011 compared
to $75,213.9 million at September 30, 2010. Of this total, the Bank’s largest exposure is
in the air transportation sector, accounting for 48.2 percent of total exposure in FY 2011
and 47.0 percent in FY 2010. The highest geographic concentration of exposure is in
Asia, with 36.9 percent of total exposure at September 30, 2011 and 36.8 percent at
September 30, 2010.

While most of Ex-Im Bank’s financings are denominated in U.S. dollars, Ex-Im Bank
also guarantees notes denominated in certain foreign currencies. In FY 2011, Ex-Im Bank
approved $1,896.3 million in foreign-currency-denominated transactions. Total
outstanding foreign-currency exposure at September 30, 2011 was $8,157.8 million,
which was 9.2 percent of total exposure. The Bank expects that its demand for
authorizations denominated in a currency other than the U.S. dollar will continue to be
strong, given its borrowers’ interest in matching debt service costs with their earnings.




                                                                                             3
The overall weighted-average risk rating for new authorizations improved in FY 2011 for
short-term rated, medium-term, and long-term export-credit authorizations to 3.81
compared to a weighted-average risk rating of 3.87 for FY 2010 authorizations. The
improvement in the new authorization weighted-average risk rating is primarily related to
the decrease in demand for Ex-Im Bank supported financing among higher risk rated
obligors which resulted from continued economic problems in FY 2011. In FY 2011,
76.9 percent of Ex-Im Bank’s short-term rated, medium-term, and long-term new
authorizations were in the level 1 to 4 range (AAA to BBB-) while 23.1 percent were
rated level 5 to 8 (BB+ to B-).

The overall weighted-average risk rating for the outstanding portfolio improved from
4.13 in FY 2010 to 3.87 in FY 2011. The improvement in the weighted average risk
rating is a result of write-offs of certain high-risk rated credits. Additionally, new FY
2011 authorizations were better rated than the portfolio average.

Over the years, there has been a shift in Ex-Im Bank’s portfolio from primarily sovereign
and other public-sector borrowers to primarily private-sector borrowers. Between FY
2007 and FY 2011, exposure to public-sector obligors has decreased from 42.0 percent to
31.4 percent, while exposure to private-sector obligors has increased from 58.0 percent to
68.6 percent.

In FY 2010, Ex-Im Bank began implementing a strategic plan which reinforces the
Bank’s ability to accomplish its mission, serve a prominent role in the Obama
Administration’s National Export Initiative and meet its congressional mandates in future
years. The Bank’s vision is to create and sustain U.S. jobs by substantially increasing the
number of companies it serves and expanding their access to global markets. The
strategic plan consists of three primary goals:
              Expand awareness of Ex-Im Bank services through focused business
               development and effective partnerships
              Improve ease of doing business for customers
              Create an environment that fosters high performance and innovation
Through implementation of its strategic plan, Ex-Im Bank hopes to get more U.S.
companies to export to more countries and more customers, and thereby create more jobs
in the United States.




                                                                                            4
I. Mission and Organizational Structure
Congressional Authorization and Mission
Ex-Im Bank is an independent executive agency and a wholly-owned U.S. government
corporation that was first organized as a District of Columbia banking corporation in
1934. Ex-Im Bank's operations subsequent to September 30, 1991, are subject to the
provisions of the Federal Credit Reform Act of 1990 (P.L. 101-508) (FCRA). The
Export-Import Bank Reauthorization Act of 2006 extended the Bank’s authority until
September 30, 2011. In accordance with its enabling legislation, continuation of Ex-Im
Bank as an independent corporate agency of the United States is subject to periodic
extensions granted by Congress. The Administration has requested a four-year extension
of the Bank’s charter through FY 2015. Congressional authorization has been
temporarily extended through November 18, 2011. Management believes that Ex-Im
Bank’s authorization will be further extended until final authorization is passed by
Congress. If the charter is temporarily not extended, the Bank will not be able to
authorize new credits; however, the Bank will continue to service existing loans,
guarantees, and insurance policies. Ex-Im Bank’s mission is to support U.S. jobs by
facilitating the export of U.S. goods and services, by providing competitive export
financing, and ensuring a level playing field for U.S. goods and services in the global
marketplace. Ex-Im Bank supports U.S. exports by providing export financing through its
loan, guarantee and insurance programs in cases where the private sector is unable or
unwilling to provide financing or where such support is necessary to level the playing
field due to financing provided by foreign governments to their exporters that are in
competition for export sales with U.S. exporters. The Bank’s charter requires reasonable
assurance of repayment for the transactions the Bank authorizes, and the Bank closely
monitors credit and other risks in its portfolio. In pursuit of its mission of supporting U.S.
exports, Ex-Im Bank offers four financial products: direct loans, loan guarantees,
working capital guarantees, and export-credit insurance. All Ex-Im Bank obligations
carry the full faith and credit of the U.S. government.

Products
From a portfolio perspective, guarantees made up the largest portion (68.9 percent) of
Ex-Im Bank’s exposure at September 30, 2011.




                                                                                             5
(in millions)                           FY 2011                    FY 2010
Outstanding Guarantees              $47,844.0   53.7%         $43,857.8       58.2%
Outstanding Loans                     8,109.7    9.1%           6,447.0        8.6%
Outstanding Insurance                 2,444.8    2.7%           2,377.6        3.2%
Outstanding Claims                    1,677.6    1.9%           2,318.2        3.1%
  Total Outstanding                  60,076.1   67.4%          55,000.6       73.1%

Undisbursed Guarantees               13,585.1      15.2%        7,971.1       10.6%
Undisbursed Loans                     8,622.7       9.7%        4,753.3        6.3%
Undisbursed Insurance                 6,868.1       7.7%        7,488.9       10.0%
 Total Undisbursed                   29,075.9      32.6%       20,213.3       26.9%

 Total Exposure                     $89,152.0    100.0%       $75,213.9      100.0%

Ex-Im Bank loan guarantees cover the repayment risks on the foreign buyer’s debt
obligations incurred to purchase U.S exports. Ex-Im Bank guarantees to a lender that, in
the event of a payment default by the borrower, it will pay to the lender the outstanding
principal and interest on the loan. Ex-Im Bank’s comprehensive guarantee covers
commercial and political risks for up to 85 percent of the U.S. contract value.

When needed, Ex-Im Bank offers fixed-rate loans directly to foreign buyers of U.S.
goods and services. Ex-Im Bank extends to a company’s foreign customer a fixed-rate
loan covering up to 85 percent of the U.S. contract value. Ex-Im Bank's direct loans carry
fixed-interest rates permitted for the importing country and term under the Arrangement
on Guidelines for Officially Supported Export Credits negotiated among members of the
Organisation for Economic Co-operation and Development (OECD).

Loans and guarantees extended under the medium-term loan program typically have
repayment terms of one to seven years, while loans and guarantees extended under the
long-term loan program usually have repayment terms in excess of seven years.

Under the Working Capital Guarantee Program, Ex-Im Bank provides repayment
guarantees to lenders on secured, short-term working capital loans made to qualified
exporters. The working capital guarantee may be approved for a single loan or a
revolving line of credit. Ex-Im Bank’s working capital guarantee protects the lender from
default by the exporter for 90 percent of the loan principal and interest.




                                                                                            6
In FY 2010, Ex-Im Bank initiated a Supply Chain Finance Guarantee Program (SCF
Program), which is designed to support U.S. exporters and their U.S. based suppliers
many of whom are small and medium sized companies. Under the SCF Program, lenders
will purchase accounts receivable owned by the suppliers and due from the exporter. Ex-
Im Bank provides a 90 percent guarantee on the repayment obligation of the exporter.
The purchase of accounts receivable allows suppliers to receive immediate payment of
their invoices, decreases their cost of funds, allows them to bid more competitively, and
enables them to better fulfill new orders and maintain or create jobs. The exporters
benefit by having the option to extend payment terms without imposing undue financial
hardship on their suppliers.

Ex-Im Bank’s Export Credit Insurance Program helps U.S. exporters sell their goods
overseas by protecting them against the risk of foreign-buyer or other foreign-debtor
default for political or commercial reasons, allowing them to extend credit to their
international customers. Insurance policies may apply to shipments to one buyer or many
buyers, insure comprehensive (commercial and political) credit risks or only political
risks, and cover short-term or medium-term sales.

Reasonable Assurance of Repayment
Ex-Im Bank’s charter requires a reasonable assurance of repayment for all credit
authorizations in order to ensure that Ex-Im Bank balances support for U.S. export
transactions with protection of taxpayer resources.

The Bank’s Board of Directors, or a Bank officer acting pursuant to delegated-approval
authority from the Board of Directors, makes the final determination of reasonable
assurance of repayment, taking into consideration staff recommendations. Transactions
resulting in over $10 million in exposure generally require the approval of the Board of
Directors.

Budgeting for New Authorizations Under the FCRA
Under the FCRA, the U.S. government budgets for the present value of the estimated cost
of credit programs. For Ex-Im Bank, the cost is determined by analyzing the net present
value of expected cash receipts and cash disbursements associated with all credits
authorized during the year. Cash receipts typically include fees or premia and loan
principal and interest, and cash disbursements typically include claim payments and loan
disbursements. Ex-Im Bank typically collects fees that cover program obligations and
administrative costs.

When expected cash disbursements exceed cash receipts, there is a net outflow of funds,
resulting in a “cost” to the Bank. This cost is sometimes referred to as subsidy or program
cost. Ex-Im Bank is required to annually estimate this cost and to seek budget authority
from Congress to cover that cost. New loans and guarantees with a program cost cannot
be committed unless sufficient budget authority is available to cover the calculated credit
cost.




                                                                                            7
When expected cash receipts exceed cash disbursements, there is a net inflow of funds to
Ex-Im Bank. The net inflow to the Bank is a “negative” subsidy or program revenue.
Prior to FY 2008, the amount of program revenue was not credited or retained by the
Bank but instead was transferred to a general fund receipt account at the U.S. Treasury
upon disbursement of the underlying credit.

In FY 2008, Congress changed how budget authority is provided to the Bank to cover (1)
the estimated costs for that portion of new authorizations where fees are insufficient to
cover expected losses (subsidy or program cost) and (2) administrative expenses. At the
start of the fiscal year the U.S. Treasury provides Ex-Im Bank with an appropriation
warrant for program costs as well as administrative expenses. The amount of the warrant
is established by spending limits set by Congress. Fees collected during the year that are
in excess of expected losses (offsetting collections) are retained by Ex-Im Bank and used
to repay the warrant received at the start of the year, resulting in a net appropriation of
zero and the Bank being self-financing for budgetary purposes.

This change occurred as a result of an ongoing in-depth analysis of the Bank’s historical
net default experience in relation to the fees collected on its credit programs. The analysis
shows that fees collected were not only sufficient to cover credit losses, they were also
sufficient to cover administrative costs. In fact, since the inception of FCRA in 1990, the
Bank has returned to the U.S. Treasury $4.9 billion more than it received in
appropriations for program and administrative costs.

In FY 2011, Ex-Im had $701.1 million in offsetting collections, of which $83.9 million
was used to cover administrative expense obligations. Program costs of $68.1 million
were obligated from available funds carried over from prior years. The remaining balance
of $617.2 million was retained by Ex-Im and is available for obligation of program costs
until FY 2014.

In FY 2010, Ex-Im had $479.4 million in offsetting collections, of which $83.9 million
was used to cover administrative expense obligations. Program costs of $44.0 million
were obligated from available funds carried over from prior years. Following statutory
guidelines, the remaining balance of $395.5 million was retained by Ex-Im. In FY 2011,
$275.0 million was returned to the U.S. Treasury due to a rescission. The remaining
balance of $120.5 million is available for obligation of program costs until FY 2013.

Although Ex-Im Bank no longer receives appropriations, Congress continues its
oversight of the Bank’s budget, setting annual limits on its use of funds for program and
administrative expense obligations.

Organizational Structure
Ex-Im Bank’s headquarters are located in Washington, D.C. with business development
efforts supported through eight regional offices across the country.




                                                                                            8
Ex-Im Bank is divided into the following key functional areas:

Board of Directors: The Board of Directors consists of the president of the Bank, who
also serves as the chairman, the first vice president of the Bank, who serves as vice
chairman, and three additional Directors. All are appointed by the president of the United
States with the advice and consent of the Senate. The Board authorizes the Bank’s major
transactions and includes an Audit Committee.

Office of the Chairman: The president serves as the chief executive officer of the Bank
and chairman of the Board of Directors. The president represents the Board generally in
its relations with other officers of the Bank, with agencies and departments of the
government, and with others having business with the Bank. The president has general
charge over the business of the Bank.

Credit Management Group: The Credit Management Group is responsible for reviewing
the creditworthiness of certain proposed transactions and reviewing transactions for
compliance with the Bank’s individual authority by-laws. This group also evaluates the
technical aspects and environmental impact of proposed projects, and is responsible for
country risk and economic analysis.

Export Finance Group: The Export Finance Group is responsible for the origination and
processing of transactions for most lines of business (except for Small Business
products), as well as transaction servicing, operations, and business development.

Small Business Group: The Small Business Group leads the Bank’s outreach to small
business exporters and includes Ex-Im Bank’s eight regional offices, which focus on
small-business outreach as well as the Business Credit and Short-Term Trade Finance
groups.

Office of the General Counsel: The Office of the General Counsel provides legal counsel
to the Bank’s management, staff, and the Board of Directors and negotiates and
documents the Bank’s transactions. The Office of the General Counsel also ensures that
the Bank complies with all applicable laws and regulations.

Office of the Chief Financial Officer: The Office of the Chief Financial Officer is
responsible for all financial operations of the Bank, including budget formulation and
execution, treasury, internal audit, credit accounting and servicing, financial reporting,
asset monitoring and management, claims and recoveries, and portfolio review.

Office of Policy and Planning: The Office of Policy and Planning is responsible for
policy development and analysis and serves as the Bank’s liaison with the OECD and
Berne Union.

Office of Resource Management: The Office of Resource Management directs human
resources, contracting, technology management, agency administration, and operating
services.



                                                                                             9
Office of Communications: The Office of Communications is responsible for marketing,
public affairs and external affairs.

Office of Congressional Affairs: The Office of Congressional Affairs is responsible for
the Bank’s relations with Congress and other government agencies.

Office of Inspector General: The Office of Inspector General is an independent office
within the Bank created by law to conduct and supervise audits, inspections and
investigations relating to the Bank’s programs and supporting operations; to detect and
prevent waste, fraud and abuse; and to promote economy, efficiency and effectiveness in
the administration and management of the Bank’s programs.


II. Financial Accounting Policy
The accompanying FY 2011 and FY 2010 financial statements have been prepared in
accordance with generally accepted accounting principles in the United States applicable
to federal agencies. The format of the financial statements and footnotes are in
accordance with form and content guidance provided in Circular A-136, Financial
Reporting Requirements, revised as of October 27, 2011 issued by the Office of
Management and Budget (OMB). Circular A-136 details the financial data required to be
disclosed, the assertions and reviews over financial information that must be performed
and suggests the presentation of such information.

Ex-Im Bank follows OMB Circular A-11 as the primary guidance for calculating the
program cost associated with the Bank’s transactions. In accordance with this guidance,
the amount of program cost calculated on the Bank’s transactions authorized after FCRA
and the associated fees collected equates to the loss allowance on these transactions, and
is disclosed as such on the financial statements and related notes.




                                                                                          10
III. Mission and Congressional Mandates
Facilitate U.S. Exports to Support U.S. Jobs
Ex-Im Bank supports U.S. jobs by facilitating the export of U.S. goods and services, by
providing competitive export financing, and ensuring a level playing field for U.S. goods
and services in the global marketplace. Ex-Im Bank’s programs offer effective financing
support, enabling exporters to win export sales where such support is necessary to match
officially supported foreign competition and to fill financing gaps due to the lack of
available commercial financing. Exports and the jobs they support are a critical
component of the U.S. economy, with exports representing about 13.9 percent of the U.S.
gross domestic product.
In FY 2010, Ex-Im Bank’s Chairman established a five-year strategic plan designed to
build on the strengths of the organization, substantially increasing the number of
companies it serves and expanding their access to global markets, as well as meeting its
congressional mandates in future years. The strategic plan consists of three primary
goals:
              Expand awareness of Ex-Im Bank services through focused business
               development and effective partnerships.
              Improve ease of doing business for customers.
              Create an environment that fosters high performance and innovation.
This strategic plan is designed to help guide efforts at all levels of the organization and is
used as a foundation for strategic and operational discussions internally. The plan
identified nine target countries (Mexico, Brazil, Colombia, Turkey, India, Indonesia,
Vietnam, Nigeria and South Africa), developing business plans and outreach efforts for
each one. Authorizations for the target countries are shown in Exhibit 1A.

                Exhibit 1A: Target Country Authorizations by Fiscal Year

         (in millions)
         Authorizations     FY 2007      FY 2008        FY 2009    FY 2010      FY2011
           Colombia       $     28.0   $      6.5   $        1.4   $ 17.9      $ 3,727.0
           India             1,401.1      1,004.7        2,201.3        53.2     2,876.8
           Turkey               65.2        586.4          220.9       634.5     2,104.0
           Mexico              991.5      1,436.1        1,693.2     2,234.4     1,707.7
           South Africa          9.8          0.4            2.0         1.8       937.4
           Indonesia              -           5.2          279.5       328.3       550.7
           Brazil              219.8        874.9          436.2       552.9       409.7
           Nigeria             118.2         98.4          194.0        47.2        21.7
           Vietnam                -            -             1.9         0.7         1.1
         Total            $ 2,833.6    $ 4,012.6    $    5,030.4   $ 3,870.9   $12,336.1



Ex-Im also re-aligned its procedures to be more customer-focused and developed new
products to further support exporters, especially small businesses. Two of the main
products developed were supply chain financing and express insurance.


                                                                                            11
Ex-Im Bank’s supply chain financing guarantee, offered to lenders, benefits U.S.
exporters and their small and medium-sized business suppliers through accounts
receivable financing. It is designed to inject liquidity in the marketplace and provide
suppliers with access to capital. During FY 2011, Ex-Im Bank authorized $1,071.5
million in supply chain finance guarantees. An estimated 300 suppliers were eligible to
participate in these supply chain transactions, with 157 identified as small businesses.

Express Insurance provides small businesses with payment risk protection, allows the
extension of competitive credit terms to foreign buyers, and enables small businesses to
obtain lender financing of receivables through the assignment of policy proceeds. It also
delivers a five day turnaround on policy quotation and two buyer credit decisions on a
simple, streamlined application platform. In FY 2011, Ex-Im Bank authorized $64.3
million in 141 transactions for express insurance.

Results of Operations: FY 2011 Authorizations
The Bank has responded to a record level of financing requests this year to provide
export financing on behalf of U.S. companies expanding foreign sales and sustaining and
creating jobs. In FY 2011, Ex-Im Bank approved $32,727.1 million in authorizations.
This is a 33.8 percent increase over authorizations of $24,467.8 million in FY 2010. The
authorizations supported an estimated U.S. export value of $41,305.1 million for FY
2011 and $34,373.4 million in FY 2010 and an estimated 288,000 and 227,000 U.S jobs
in FY 2011 and FY 2010, respectively. The increasing level of demand is due primarily
to the lack of available private sector liquidity, the Bank’s ability to respond to the
resulting financing gaps and continued implementation of the Bank’s five-year strategic
plan. Full year authorizations increased from $12,569.4 million to $32,727.1 million
during the past five fiscal years as shown in Exhibit 1B.




                                                                                           12
                            Exhibit 1B: Authorizations by Fiscal Year
     (in millions)
     Authorizations                 FY 2007     FY 2008       FY 2009       FY 2010       FY 2011
     Long Term
       Loans                    $       -   $      356.0 $ 3,025.5 $ 4,255.5 $ 6,315.0
       Guarantees                   7,234.0       8,101.5   9,628.5  10,225.0  15,479.4
     Subtotal, Long Term            7,234.0       8,457.5  12,654.0  14,480.5  21,794.4

     Medium Term
      Loans                              -            -             -             5.1          7.9
      Guarantees                      504.2        697.0         315.2          702.5        693.0
      Insurance                       301.8        228.0         237.3          312.9        238.8
     Subtotal, Medium Term            806.0        925.0         552.5        1,020.5        939.7

     Short Term
      Working Capital               1,255.3       1,380.9       1,531.0       2,178.5       3,228.0
      Insurance                     3,274.1       3,635.5       6,275.8       6,788.3       6,765.0
     Subtotal, Short Term           4,529.4       5,016.4       7,806.8       8,966.8       9,993.0

     Tied Aid                           -             -             7.8           -             -

     Total Authorizations       $ 12,569.4    $ 14,398.9    $ 21,021.1    $ 24,467.8    $ 32,727.1




Facilitate U.S. Exports by Small Businesses
Small businesses are major creators of jobs in America. The Bank’s mandate from
Congress places significant emphasis on supporting small-business exports. In addition,
the Bank’s charter states: “The Bank shall make available, from the aggregate loan,
guarantee and insurance authority available to it, an amount to finance exports directly by
small-business concerns (as defined under Section 3 of the Small Business Act) which
shall be not less than 20 percent of such authority for each fiscal year.”

Ex-Im Bank’s Small Business Group provides a bank wide focus on small-business
support with overall responsibility for expanding and overseeing small business outreach.
This group is responsible for helping to provide small-businesses with financial
assistance to increase export sales and for acting as a liaison with the Small Business
Administration and other departments and agencies in the U.S. government in matters
affecting small businesses.

Ex-Im Bank’s programs play an important role in providing export-finance support to
small businesses that have the ability to expand and create American jobs. In 1978, Ex-
Im Bank introduced its first short term export-credit insurance policy tailored for small
business. Since this introduction, Ex-Im Bank has been designing and implementing
programs and policies to meet the needs of the U.S. small-business exporter.




                                                                                                      13
Results of Operations: FY 2011 Small-Business Authorizations
Ex-Im Bank’s objective is to grow small-business authorizations in the context of a
reasonable assurance of repayment and in response to market demand. Although the
percent of small-business authorizations to total authorizations was down slightly in FY
2011, total small-business authorizations continue to grow and were at a record level.
New small-business authorizations in FY 2011 increased 19.5 percent to $6,037.3 million
as compared with new small-business authorizations for the same period in FY 2010 of
$5,052.9 million. In FY 2011, small-business authorizations represented 18.4 percent of
total authorizations compared to 20.7 percent of total authorizations in FY 2010. During
FY 2011, the number of transactions that were made available for the direct benefit of
small-business exporters increased by 5.0 percent to 3,247 transactions (86.6 percent of
the total number of transactions), compared to 3,091 transactions (87.5 percent of the
total number of transactions) in FY 2010. Over the past five fiscal years, Ex-Im Bank’s
direct support for the small-business sector has ranged from $3,190.2 million to $6,037.3
million, an 89.2 percent increase.

Ex-Im Bank offers two products that primarily benefit small businesses: working capital
guarantees (including supply-chain finance guarantees) and export-credit insurance. In
FY 2011 and FY 2010 $2,150.6 million and $1,450.3 million respectively, (66.6 percent
in both years), of total authorizations in the Working Capital Guarantee Program
supported small businesses. The increase in small-business working capital authorizations
was attributed to growth in overall demand for the product.

Of the total authorizations under the export-credit insurance program in FY 2011,
$3,273.6 million (46.7 percent) supported small businesses when compared to $2,644.0
million (37.2 percent) in FY 2010.

Exhibit 2 shows the total dollar amount of authorizations for small-business exports for
each year since FY 2007, together with the percentage of small-business authorizations to
total authorizations for that fiscal year.




                                                                                       14
                                        Exhibit 2: Small-business Authorizations
                                $35,000.0                                                               50.0%
                                                                                                        45.0%
                                $30,000.0
                                                                                                        40.0%
                                $25,000.0                                                               35.0%

                                $20,000.0                                                               30.0%




                                                                                                                Percentage
                (in millions)



                                                                                                        25.0%
                                $15,000.0                                                               20.0%
                                $10,000.0                                                               15.0%
                                                                                                        10.0%
                                 $5,000.0
                                                                                                        5.0%
                                     $0.0                                                               0.0%
                 Fiscal Year                 2007         2008       2009        2010        2011
       Small Business Authorizations        $3,351.7    $3,190.2    $4,360.4    $5,052.9    $6,037.3
       Total Authorization                  $12,569.4   $14,398.9   $21,021.1   $24,467.8   $32,727.1
       Percentage of Authorizations          26.7%       22.2%       20.7%       20.7%       18.4%




Facilitate U.S. Exports for Environmentally Beneficial Goods and Services
Ex-Im Bank’s financing helps mitigate risk for U.S. companies that offer
environmentally beneficial goods and services and also offers competitive financing
terms to international buyers for the purchase of these goods and services. Ex-Im Bank
has an active portfolio that includes financing for U.S. exports of:

      Renewable energy equipment
      Wastewater treatment projects
      Air pollution technologies
      Waste management services
      Other various environmental goods and services

Ex-Im Bank support for U.S. environmental companies ultimately fuels U.S. job creation
and the innovative research and development that allows the U.S. environmental industry
to remain at the forefront worldwide.




                                                                                                                             15
Results of Operations: FY 2011 Environmentally Beneficial Authorizations
The total number of environmentally beneficial authorizations increased 31.5 percent to
142 in FY 2011 from 108 in FY 2010. In FY 2011, Ex-Im Bank authorizations of
environmentally beneficial goods and services increased 66.0 percent to $889.5 million
(2.7 percent of total transactions) from $535.8 million (2.2 percent in FY 2010). The
large increase in authorizations for transactions covering environmentally beneficial
goods and services reflects continuing worldwide demand for exports and projects that
benefit the environment, especially renewable energy and energy efficiency projects.

Ex-Im Bank’s total number of renewable energy authorizations increased 66.7 percent to
45 in FY 2011 from 27 in FY 2010. In FY 2011, Ex-Im Bank authorizations which
support U.S. renewable-energy exports and services increased 117.6 percent to a record
level of $721.4 million (2.2 percent of total transactions) from $331.6 million (1.4
percent FY 2010). The authorizations covered equipment and services for solar
photovoltaic (PV) projects, most notably two large PV projects in Canada, as well as
wind energy projects and concentrated solar thermal plant projects. The Bank continues
to increase its share of support in the U.S. renewable energy export market, and its
financing in this sector is helping the administration's Renewable Energy and Energy
Efficiency Export Initiative (RE41) meet its target goals of simplifying the process of
obtaining export financing, facilitating a significant increase in renewable energy, and
improving export promotion services and market access for U.S. renewable energy
companies.

Facilitate U.S. Exports to Sub-Saharan Africa
Ex-Im Bank provides U.S. exporters with the financing tools they need to successfully
compete for business in Africa. Ex-Im Bank's products and initiatives help U.S. exporters
in all regions of Africa, including high-risk and emerging markets. The Bank’s Charter
states that the Bank shall “take prompt measures, consistent with the credit standards
otherwise required by law, to promote the expansion of the Bank’s financial
commitments in sub-Saharan Africa under the loan, guarantee, and insurance programs of
the Bank.” Ex-Im Bank has established an advisory committee to advise the Board of
Directors on the development and implementation of policies and programs designed to
support those programs.

Results of Operations: FY 2011 Sub-Saharan Africa Authorizations
The total number of Sub-Saharan Africa authorizations increased 31.8 percent to 170 in
FY 2011 from 129 in FY 2010. The dollar amount of authorizations increased 70.0
percent to $1,380.9 million (4.2 percent of total authorizations) in FY 2011 from $812.5
million (3.3 percent of total authorizations) in FY 2010. Among the transactions in FY
2011 were: a long term guarantee to assist TAAG Angola Airlines in the purchase of
aircraft and engines; a direct loan to South Africa's state-owned electric power utility,
Eskom, Limited; approval enable Rwanda's Air Express to buy Boeing aircraft; financing
for locomotive and steel coil sales to South Africa; crop dusters to Kenya; poultry
equipment to Uganda; and auto parts to Nigeria. Approximately 9.0 percent of total U.S
exports to Sub-Saharan Africa are supported by Ex-Im Bank.




                                                                                          16
IV. Effectiveness and Efficiency
Ex-Im Bank uses various measures to assess the relative efficiency and effectiveness of
the Bank’s programs. As an overall measure, the Bank’s annual Report to the U.S.
Congress on Export Credit Competition and the Export-Import Bank of the United States
(Competitiveness Report) compares the Bank’s competitiveness with that of the other
export credit agencies (ECAs). In addition, Ex-Im Bank uses various leverage measures
to assess efficiency and cost effectiveness.

Efficient: Ex-Im Bank has been Self-Sustaining since FY 2008
Ex-Im Bank has been self-sustaining for budgetary purposes since FY 2008. As a result,
the Bank does not rely on Congressional appropriation to sustain operations, which is
critical in a tight budgetary environment. Ex-Im Bank’s program revenue (i.e., in a given
year, fee collections from transactions that exceed the forecasted loss on those
transactions) is retained as offsetting collections and used to offset the cost of new
obligations in the fiscal year, including prudent reserves to cover future losses as well as
all administrative costs. In FY 2011, Ex-Im Bank received $701.1 million in offsetting
collections, while new obligations totaled $157.0 million; compared with $479.4 million
offsetting collections and $127.9 million new obligations in FY 2010. The 46.2 percent
increase in offsetting collections is primarily attributable to the continued increase in
authorizations over the past several years, particularly long-term authorizations which
increased 50.5 percent from FY 2010 and generally have a lower loss experience than the
short-term and medium-term programs.




                                                                                          17
                          Exhibit 3: Offsetting Collections and New Obligations
                                                                                  FY 2011


 Offsetting Collections                                                 Offsetting Collections




                          Administrative   Program
           Obligations      Expenses        Costs




                      $0.0             $100.0         $200.0        $300.0          $400.0       $500.0   $600.0   $700.0        $800.0
                                                                              (in millions)



                                                                                FY 2010


 Offsetting Collections                              Offsetting Collections




                          Administrative Program
           Obligations    Expenses        Costs




                      $0.0             $100.0         $200.0         $300.0         $400.0       $500.0   $600.0   $700.0        $800.0
                                                                               (in millions)




As a quantitative efficiency measure, $4.47 of offsetting collections during FY 2011 were
generated by each dollar of administrative and program costs used, as depicted in Exhibit
3, versus $3.75 in the corresponding period in FY 2010.

Overall Effectiveness: Recognition from Customers and Peers
The Bank’s competitiveness report to Congress showed survey results from exporters and
lenders that indicated the Bank’s core business policies and practices were classified as
competitive with other officially supported foreign competition, primarily other G-7
ECAs. According to the data, Ex-Im Bank terms, including policy coverage, interest
rates, exposure-fee rates, and risk premia, consistently matched competitors.

Ex-Im Bank continues to receive recognition from Trade Finance magazine. In the June
2011 edition, Ex-Im Bank was recognized as the “Best Export Credit Agency in the
Americas”. This publication serves as the global magazine for decision makers in the
trade finance and export communities.




                                                                                                                            18
In 2010, the British Exporters Association ranked 38 of the top ECAs and Ex-Im Bank
was one of only two ECAs to receive a perfect score. Ex-Im Bank received awards for
"Deals of the Year 2010." These deals included; the export of Boeing aircraft to Turkish
Airlines; mining equipment to Iron Ore Company of Canada; helicopters to the Trinidad
and Tobago coast guard; fire-fighting equipment to Ghana; and the Bank's first step into
supply chain finance for CNH America. Ex-Im Bank financing played a crucial role in
each of the transactions.

The landscape of export credit agencies is shifting. Many of Ex-Im Bank’s competitor
ECAs are moving away from their traditional roles and are evolving into quasi-market
players. They are doing this by allowing greater non-domestic content in the projects that
they support and by venturing into more commercial endeavors, such as financing into
high income markets. Also, Ex-Im Bank’s public-policy constraints – economic-impact
analysis, foreign-content policy, local-costs policy, tied aid policies and procedures, and
U.S. shipping requirements – have the potential to create tensions between the goals of
maximizing U.S. exporter competitiveness as compared with foreign ECA-backed
competition (and maximizing Ex-Im Bank financing) and satisfying public mandates
(which may limit Ex-Im Bank financing).

Leverage of Resources: A Good Deal for U.S. Taxpayers
The Bank uses leverage ratios to assess efficiency and to measure the return on resources
invested in Ex-Im Bank programs. Prior to FY 2008, resources to cover Ex-Im Bank’s
program costs (excess of expected credit losses over fees for individual credits) and
administrative costs were in the form of appropriations from Congress. Beginning in FY
2008, resources available to the Bank are collections (mostly exposure fees) in excess of
amounts needed to cover estimated credit losses.

For every dollar of budget authority used for program and administrative expenses during
FY 2011, Ex-Im Bank facilitated an estimated $263 of U.S. exports. This multiple
compares to $269 of U.S. exports in FY 2010. The slight decrease is the result of the use
of more budget authority in relation to total export sales for new authorizations approved
in FY 2011.

The leverage in terms of administrative budget authority is even greater. For every dollar
of administrative budget authority used during FY 2011, Ex-Im Bank provided financing
in support of an estimated $492 of U.S. exports, compared to an estimated $410 of U.S.
exports in FY 2010. Exhibit 4 shows the total estimated U.S. exports, the corresponding
total budget authority, and resulting leverage measures for the past five fiscal years.




                                                                                         19
                            Exhibit 4: Budget Authority to Export Value



                        $45,000.0
                        $40,000.0                                                                   $500.0
        (in millions)



                        $35,000.0
                                                                                                    $400.0




                                                                                                             Leverage (in dollars)
                        $30,000.0
                        $25,000.0                                                                   $300.0
                        $20,000.0
                                                                                                    $200.0
                        $15,000.0
                        $10,000.0
                                                                                                    $100.0
                         $5,000.0
                             $0.0                                                                   $0.0
                          Fiscal Year     2007        2008        2009        2010        2011
          Export Value                  $16,041.0   $19,597.2   $26,440.8   $34,373.4   $41,305.1
          Total Budget Authority         $124.5      $103.4      $111.4      $127.9      $157.0
          Export to Total Budget
                                         $128.8      $189.5      $237.4      $268.8      $263.1
           Authority Leverage
          Export to Admin Budget
                                         $220.3      $251.2      $323.2      $409.8      $492.3
            Authority Leverage




Ex-Im Bank’s default rate net of recoveries, whether measured from the inception of the
Bank or the beginning of credit reform, has been less than two percent of loan
disbursements and shipments guaranteed. Future claim activity in the short term can be
very volatile. To account for the current economic environment, the Bank applied a more
conservative methodology to predict the probability of defaults. Any material
deterioration from historical experience in future default and recovery rates would require
the Bank to adjust it reserves accordingly, which could have a negative impact on
leverage ratios in future periods.

Another efficiency measure (Exhibit 5) examines the productivity contributed by each
employee as measured by the dollar amount and number of authorizations. In FY 2011,
the average dollar amount of authorizations per employee was $86.9 million, up from
$65.9 million in FY 2010. The average number of authorizations per employee was 10.0
in FY 2011, up from 9.5 in FY 2010. Ex-Im Bank credits these increases to its continuing
focus on streamlining its bank-wide operations as well as the commitment and dedication
of its employees.




                                                                                                                             20
                                                          Exhibit 5: Employee Leverage

                                       (in millions)
                                                                                                                                    $100.0
                                       $33,000.0
                                                                                                                                    $90.0
                                       $30,000.0
                                                                                                                                    $80.0
                                       $27,000.0
                                       $24,000.0                                                                                    $70.0
                 Authorizations
                                       $21,000.0                                                                                    $60.0
                     Total 


                                       $18,000.0                                                                                    $50.0




                                                                                                                                                Leverage
                                       $15,000.0
                                                                                                                                    $40.0
                                       $12,000.0
                                                                                                                                    $30.0
                                          $9,000.0
                                                                                                                                    $20.0
                                          $6,000.0
                                          $3,000.0                                                                                  $10.0

                                                   $0.0                                                                             $0.0
                                   Fiscal Year                     2007        2008        2009        2010         2011
Authorization Level                                              $12,569.4   $14,398.9   $21,021.1   $24,467.8    $32,727.1
Authorization to Employee Leverage (in
                                                                  $34.3       $40.1       $57.6       $65.9         $86.9
                millions)




                                                                  Number of Authorizations per Employee
                                                     4,000                                                                    12.0

                                                     3,500
                                                                                                                              10.0
                                                     3,000
                                                                                                                              8.0
                                  Authorizations




                                                     2,500
                                   Number of




                                                                                                                                     Leverage
                                                     2,000                                                                    6.0

                                                     1,500
                                                                                                                              4.0
                                                     1,000
                                                                                                                              2.0
                                                        500

                                                           0                                                                  0.0
                                                   Fiscal Year       2007       2008      2009       2010        2011
             Number of Authorizations                                2,390     2,704      2,891      3,532       3,751
             Authorizations per Employee                              6.5        7.5       7.9        9.5        10.0




                                                                                                                         21
                                V. Portfolio Analysis
Ex-Im Bank’s Portfolio by Program, Region, Industry, Obligor Type and Foreign
Currency
For financial statement purposes, Ex-Im Bank defines exposure as the authorized
outstanding and undisbursed principal balance of loans, guarantees, and insurance. It also
includes the unrecovered balance of payments made on claims that were submitted to Ex-
Im in its capacity as guarantor or insurer under the export guarantee and insurance
programs. Exposure does not include accrued interest or transactions pending final
approval. This corresponds to the way activity is charged against the Bank’s overall
$100 billion lending limit imposed by Section 6(a)(2) of Ex-Im Bank’s Charter.

Working Capital Guarantees may be approved for a single loan or a revolving line of
credit, with an availability generally of one year. Guaranteed lenders do not report
activity to Ex-Im, the entire credit is assumed to be “disbursed” when the fee is paid to
Ex-Im. The credit is recorded as repaid in one installment six months after the expiry date
of the credit unless the Controller’s office is notified before that time that a claim has
been paid. Under the assumption that the exporter is using the credit up to the end of the
expiry period, six months provides sufficient time for the guaranteed lender to report
defaults to Ex-Im in the event that the exporter does not repay the credit. If a claim is
paid, the remaining outstanding balance of the credit associated with the claim is reduced
to zero. Exposure is then reflected as an unrecovered claim.

Since there is typically a delay in reporting shipments under the insurance program,
undisbursed balances remain on the books for 120 days after the expiry date to allow for
the posting of shipments that took place within the period covered by the policy but were
reported after the expiry date. These unreported shipments pose some liability in the form
of claims that have been incurred but not yet reported (IBNR). Leaving the policy open
past the expiry date provides a reserve for IBNR.

Ex-Im Bank currently has exposure in 171 countries throughout the world totaling
$89,152.0 million at September 30, 2011. In general, total exposure over the five-year
period has averaged $69.7 billion.

Exhibit 6 summarizes total Ex-Im Bank exposure by program and shows each program as
a percentage of the total exposure at the end of the respective fiscal year.




                                                                                         22
                                Exhibit 6: Exposure by Program

(in millions)                            FY 2007     FY 2008    FY 2009    FY 2010    FY 2011
Guarantees                                 $44,039.7 $45,417.0 $48,301.3 $51,828.9 $61,429.1
Loans                                        4,965.8    4,546.0    7,910.5   11,200.3   16,732.4
Insurance                                    6,180.4    6,364.1    9,365.9    9,866.5    9,312.9
Receivables from Subrogated Claims           2,238.6    2,145.7    2,410.1    2,318.2    1,677.6
  Total Exposure                           $57,424.5 $58,472.8 $67,987.8 $75,213.9 $89,152.0

(% of Total)                             FY 2007     FY 2008    FY 2009    FY 2010    FY 2011
Guarantees                                     76.7%      77.6%      71.0%      68.9%      68.9%
Loans                                           8.7%       7.8%      11.6%      14.9%      18.8%
Insurance                                      10.8%      10.9%      13.8%      13.1%      10.4%
Receivables from Subrogated Claims              3.8%       3.7%       3.6%       3.1%       1.9%
  Total Exposure                              100.0%     100.0%     100.0%     100.0%     100.0%

Exhibit 7 summarizes total Ex-Im Bank exposure by geographic region. The All Other
category in Exhibit 7 includes undisbursed balances of short-term multi-buyer insurance
that is not allocated by region until the shipment has taken place.

                                Exhibit 7: Geographic Exposure

(in millions)                      FY 2007   FY 2008   FY 2009   FY 2010   FY 2011
Asia                             $24,009.0 $23,925.6 $28,271.2 $27,655.2 $32,832.3
Latin America & Caribbean         13,226.5  13,618.1  14,222.2  15,606.3  19,728.3
Europe                             6,173.9   6,447.1   6,897.2   7,907.3  10,772.7
North America                      4,841.1   5,152.2   6,136.1   7,773.9   9,352.9
Oceania                            1,377.0   1,135.0   1,394.5   4,601.9   5,372.5
Africa                             3,819.9   4,011.0   4,555.8   4,949.4   4,832.5
All Other                          3,977.1   4,183.8   6,510.8   6,719.9   6,260.8
  Total Exposure                 $57,424.5 $58,472.8 $67,987.8 $75,213.9 $89,152.0

(% of Total)                         FY 2007   FY 2008    FY 2009    FY 2010    FY 2011
Asia                                   41.8%     40.9%      41.6%      36.8%      36.9%
Latin America & Caribbean              23.0%     23.3%      20.9%      20.7%      22.1%
Europe                                 10.8%     11.0%      10.1%      10.5%      12.1%
North America                           8.4%      8.8%       9.0%      10.3%      10.5%
Oceania                                 2.4%      1.9%       2.1%       6.1%       6.0%
Africa                                  6.7%      6.9%       6.7%       6.6%       5.4%
All Other                               6.9%      7.2%       9.6%       9.0%       7.0%
  Total Exposure                      100.0%    100.0%     100.0%     100.0%     100.0%




                                                                                              23
Exhibit 8 shows exposure by the major industrial sectors in the Bank’s portfolio.

                       Exhibit 8: Exposure by Major Industrial Sector
(in millions)                  FY 2007       FY 2008          FY 2009        FY 2010     FY 2011
Air Transportation            $25,551.5     $27,671.2        $33,203.0      $35,370.6   $43,014.5
Manufacturing                   4,405.3       4,915.9          4,614.5        8,904.7    12,499.8
Oil & Gas                       7,084.7       7,482.6          8,014.7       10,408.5    10,916.6
Power Projects                  4,085.0       3,830.1          4,448.5        4,599.1     6,818.8
All Other                      16,298.0      14,573.0         17,707.1       15,931.0    15,902.3
  Total Exposure              $57,424.5     $58,472.8        $67,987.8      $75,213.9   $89,152.0

(% of Total)                   FY 2007       FY 2008          FY 2009        FY 2010     FY 2011
Air Transportation               44.5%         47.3%            48.8%          47.0%       48.2%
Manufacturing                     7.7%          8.4%             6.8%          11.8%       14.0%
Oil & Gas                        12.3%         12.8%            11.8%          13.8%       12.2%
Power Projects                    7.1%          6.6%             6.5%           6.1%        7.6%
All Other                        28.4%         24.9%            26.1%          21.3%       18.0%
 Total Exposure                 100.0%        100.0%           100.0%         100.0%      100.0%



Through the years, there has been a shift in Ex-Im Bank’s portfolio. As the need for
private-sector financing has increased, the percentage of Ex-Im Bank’s portfolio
represented by private obligors has increased from 58.0 percent in FY 2007 to 68.6
percent in FY 2011.

Of the portfolio at September 30, 2011, 31.4 percent represents credits to public-sector
obligors or guarantors (10.4 percent to sovereign obligors or guarantors and 21.0 percent
to public non-sovereign entities); 68.6 percent represents credits to private-sector
obligors. A breakdown of public-sector versus private-sector exposure is shown in
Exhibit 9.

                            Exhibit 9: Public and Private Obligors

         Year End               FY 2007   FY 2008       FY 2009   FY 2010    FY 2011
         Private Obligors       58.0%     59.5%         61.1%     67.2%      68.6%
         Public Obligors        42.0%     40.5%         38.9%     32.8%      31.4%


Ex-Im Bank provides guarantees in foreign currency to allow borrowers to better match
debt service costs with earnings. Ex-Im Bank adjusts its reserves to reflect the potential
risk of foreign currency fluctuation.

In FY 2011, Ex-Im Bank approved $1,896.3 million in transactions denominated in a
foreign currency, representing 5.8 percent of all new authorizations, as shown in Exhibit
10. In FY 2010, Ex-Im Bank approved $1,529.3 million in transactions denominated in a
foreign currency, representing 6.3 percent of all new authorizations. Foreign-currency
transactions are booked in U.S. dollars based on the exchange rate at the time of
authorization. The U.S. dollar exposure is adjusted at year end using the latest exchange
rates.


                                                                                             24
At September 30, 2011, Ex-Im Bank had 103 guarantee transactions with outstanding
balances denominated in a foreign currency. Using the foreign-currency exchange rates at
September 30, 2011, Ex-Im Bank adjusted the dollar amount of the outstanding balances
for these transactions. The adjustment was a net increase in exposure of $801.2 million
for a total outstanding balance of $8,157.8 million of foreign-currency denominated
guarantees, representing 9.2 percent of total Bank exposure.

At the end of FY 2010, Ex-Im Bank had 105 transactions with outstanding balances
denominated in a foreign currency. Using the foreign-currency exchange rates at
September 30, 2010, Ex-Im Bank adjusted the dollar amount of the outstanding balances
for these transactions. The adjustment was a net increase in exposure of $890.2 million
for a total outstanding balance of $8,969.2 million of foreign-currency denominated
guarantees, representing 11.9 percent of total Bank exposure.

                                           Exhibit 10: Foreign-Currency Transactions



                                           $35,000.0                                                              12.0%



                                           $30,000.0
                                                                                                                  10.0%




                                                                                                                          Percentage of Total Authorizations
                                           $25,000.0
              (in millions)




                                                                                                                  8.0%

                                           $20,000.0

                                                                                                                  6.0%

                                           $15,000.0

                                                                                                                  4.0%
                                           $10,000.0


                                                                                                                  2.0%
                                             $5,000.0



                                    Fiscal Year   $0.0                                                            0.0%
                                                             2007      2008       2009       2010       2011
      Authorizations                                       $12,569.4 $14,398.9 $21,021.1 $24,467.8 $32,727.1
      Foreign Currency Authorizations                      $1,295.1   $1,618.8   $1,217.5   $1,529.3   $1,896.3
      Foreign Currency Authorizations as a Percentage of
                                                            10.3%      11.2%      5.8%       6.3%       5.8%
                     Total Authorizations




The level of foreign-currency authorizations is attributable in large part to borrowers’
desire to borrow funds in the same currency as they earn funds, in order to mitigate the
risk involved with exchange-rate fluctuations. The majority of the foreign-currency



                                                                                                                                                               25
authorizations support U.S. exports of commercial jet aircraft. Exhibit 11 shows the U.S.
dollar value of the Bank’s outstanding foreign-currency exposure by currency.
        Exhibit 11: U.S. Dollar Value of Outstanding Foreign-Currency Exposure

                                        FY 2011                         FY 2010
                             Outstanding                     Outstanding
                               Balance          Percentage     Balance          Percentage
      Currency               (in millions)       of Total    (in millions)       of Total
      Euro                        $5,672.2           69.6%        $6,063.7           67.7%
      Canadian Dollar                  859.8         10.5%          1,022.2          11.4%
      Australian Dollar                474.1          5.8%             634.2          7.1%
      Japanese Yen                     440.8          5.4%             514.7          5.7%
      New Zealand Dollar               325.5          4.0%             165.6          1.8%
      Korean Won                       139.7          1.7%             158.2          1.8%
      Mexican Peso                     131.9          1.6%             244.2          2.7%
      British Pound                     85.8          1.1%             109.9          1.2%
      South African Rand                24.9          0.3%              52.7          0.6%
      Swiss Franc                        3.1          0.0%               3.8          0.0%
      Total                       $8,157.8          100.0%        $8,969.2          100.0%



VI. Loss Reserves, Major Impaired Assets, and Paris Club Activities

Allowance for Losses on Loans, Guarantees, Insurance and Subrogated Claims
The total allowance for Ex-Im Bank credits is comprised of an allowance for loss on all
credits and defaulted guarantees and insurance policies. A provision is charged to
earnings as losses are estimated to have occurred. Write-offs are charged against the
allowance when management determines that a loan or claim balance is uncollectable.
Subsequent recoveries, if any, are credited to the allowance.

The allowance for Ex-Im Bank credits authorized after FCRA equates to the amount of
credit loss associated with the applicable credit. Ex-Im Bank has established cash flow
models for expected defaults, fees and recoveries to estimate the credit loss for allowance
purposes. The models incorporate Ex-Im Bank’s actual historical loss and recovery
experience.

Due to the fact that financial and economic factors affecting credit repayment prospects
change over time, the net estimated credit loss of loans, guarantees and insurance is re-
estimated annually in accordance with OMB guidelines and Statement of Federal
Financial Accounting Standards 18, “Amendments to Accounting Standards for Direct
Loans and Loan Guarantees”. This re-estimate indicates the appropriate level of funds
necessary to cover projected future claims. Decreases in estimated credit losses result in
excess funds returned to the U.S. Treasury while increases in estimated credit losses are
covered by additional appropriations that become automatically available through
permanent and indefinite authority, pursuant to the FCRA.




                                                                                             26
As of September 30, 2011, a re-estimate of the credit loss of the exposure of FY 1992
through FY 2011 commitments indicated that of the balances in the financing accounts,
the net amount of $102.2 million of additional funds were needed in the financing
accounts. This total is included in Receivable from the Program Account on the Balance
Sheet and will be received from the U.S. Treasury in FY 2012.

As of September 30, 2010, a re-estimate of the credit loss of the exposure of FY 1992
through FY 2010 commitments indicated that of the balances in the financing accounts,
the net amount of $36.4 million was no longer needed to cover commitments and was due
to the U.S. Treasury. This amount is included in the Accounts Payable to the U.S.
Treasury on the Balance Sheet.

In FY 2011, as part of the Heavily Indebted Poor Countries (HIPC) initiative, Ex-Im
wrote-off a significant amount ($786.6 million) of loans and claims receivable. The
HIPC program was initiated by the International Monetary Fund and World Bank to
provide debt relief to countries with unsustainable debt burden in an effort to contribute
toward future growth, poverty reduction and debt sustainability. The Bank had previously
anticipated these write-offs and was fully reserved to cover the expected loss. As a result
of the write-offs, overall reserves decreased from FY 2010 to FY 2011 as the reserves
absorbed the impact of these write-offs.

The total allowance for losses at September 30, 2011 for loans, claims, guarantees and
insurance commitments is $4,069.2 million, representing 4.6 percent of total exposure of
$89,152.0 million (Exhibit 12). This compares to the allowance for losses at September
30, 2010, for loans, claims receivable, guarantees and insurance commitments of
$5,118.6 million representing 6.8 percent of total exposure of $75,213.9 million.

                      Exhibit 12: Loss Reserves and Exposure Summary

(in millions)                                                        FY 2011        FY 2010
Loss Reserves
Allowance for Loan Losses (Including Undisbursed)                $    1,538.2   $    1,687.8
Allowance for Defaulted Guarantees and Insurance                      1,311.5        1,882.1
Liability for Guarantees and Insurance (Including Undisbursed)        1,219.5        1,548.7
Total Reserves                                                   $    4,069.2   $    5,118.6

Total Exposure
Loans                                                            $   16,732.4   $   11,200.3
Receivables from Defaulted Guarantees and Insurance                   1,677.6        2,318.2
Guarantees and Insurance                                             70,742.0       61,695.4
Total Exposure                                                   $   89,152.0   $   75,213.9

Loss Reserve as Percentage
 of Total Exposure                                                       4.6%           6.8%




                                                                                               27
Major Impaired Assets
At September 30, 2011, Ex-Im Bank had two project financings, one transportation
credit, and eight major corporate borrowers (those having an outstanding balance greater
than $15 million) that had been classified as impaired. The aggregate amount of exposure
was $495.0 million. Five of the corporate borrowers are all engaged in the banking
sector: three are based in Kazakhstan, one in the Ukraine, and one in Nigeria. Their
difficulties primarily arose from the global economic crisis of more than a year ago.
Lenders' claims on guarantees related to the aforementioned borrowers continue to come
in. Ex-Im Bank has been very proactive in negotiating a resolution to each one. All
remaining credits in the impaired category are in various stages of recovery, from being
on "negative watch" to that of a "performing loan but under close monitoring status."
When entering into these credit facilities, Ex-Im Bank was supporting the export of U.S.
products and services to purchasers in Brazil, Ecuador, Indonesia, Kazakhstan, Pakistan,
Philippines, Turkey, Ukraine, and Venezuela.

Paris Club Activities
The Paris Club is a group of 19 permanent member-creditor countries that meet regularly
in Paris to discuss and provide debt relief to qualifying debtor countries. The U.S.
Treasury and State Department are members of the organization and represent the
interests of all U.S. agencies that hold international debt. In FY 2011 and FY 2010, three
countries and four countries, respectively, were eligible for debt forgiveness and/or debt
rescheduling of their debt owed to Ex-Im Bank, including capitalized interest (Exhibit
13).


                       Exhibit 13: Paris Club Bilateral Agreements

(in thousands)                            FY 2011                         FY 2010

                                  Principal        Debt           Principal        Debt
Country                           Forgiven      Rescheduled       Forgiven      Rescheduled
Antigua & Barbuda                         $-         $22,595              $-             $-
Central African Republic                    -              -            8,145              -
Congo                                       -              -            3,929              -
Cote d'Ivoire                         43,739               -           43,151              -
Democratic Republic of Congo         774,538               -                -              -
Haiti                                       -              -            3,393              -
Total                                $818,277        $22,595          $55,225            $-




                                                                                        28
VII. Portfolio Risk Rating System and Risk Profile
The Interagency Country Risk Assessment System (ICRAS)
OMB established the Interagency Country Risk Assessment System (ICRAS) to provide
a framework for uniformly measuring the costs of the U.S. government’s international
credit programs across the various agencies that administer them. To operate this
framework, OMB chairs an interagency working group composed of the agencies with
international loan programs, as well as the Departments of State and U.S. Treasury, the
Federal Deposit Insurance Corp. and the Federal Reserve Board. In addition, OMB
consults annually with the Congressional Budget Office.

The ICRAS methodology determines both the risk levels for lending to sovereign
governments and non-sovereign borrowers. The non-sovereign levels can be adjusted.

One of OMB’s key goals in developing this system was to pattern ICRAS after systems
in the private sector. Therefore ICRAS adopts similar ratings and rating methodologies as
the private rating agencies, such as Moody’s, Standard & Poor’s and Fitch IBCA.

Risk Ratings
ICRAS rates every country to which U.S. government agencies have outstanding loans or
loan guarantees or are anticipating making new credits available. ICRAS rates countries
on the basis of economic and political/social variables. There are 11 sovereign and 9 non-
sovereign risk categories and each country receives two ratings: a sovereign-risk rating
and a private-risk rating. ICRAS currently has risk ratings for 189 sovereign and 191
non-sovereign markets.

Like the private sector risk-rating agencies, ICRAS rates countries on the basis of
economic, political and social variables. Throughout the rating process analysts use
private-sector ratings as one of the benchmarks for determining the ICRAS rating in
keeping with the principle of congruence to private ratings. When ICRAS ratings
significantly deviate from Moody’s, S&P’s, Fitch IBCA’s or OECD ratings, the
reasoning is substantiated in an ICRAS paper and is the subject of interagency discussion.
This presumption serves as a key reference point throughout the ICRAS process.

The ratings are based, in general, on a country's (1) ability to make payments, as
indicated by relevant economic factors and (2) willingness to pay, as indicated by
payment record and political and social factors. Four categories, ratings 1 through 4, are
roughly equivalent to "creditworthy" or "investment grade" private bond ratings. Three
categories, ratings 9 to 11, are for countries either unable to pay fully, even with extended
repayment periods, or currently unwilling to make a good faith effort. In between are
categories reflecting various degrees of potential or actual payment difficulties.




                                                                                           29
ICRAS Default Estimates
Ex-Im Bank has established cash flow models for expected defaults, fees and recoveries
to estimate the credit loss for each approved credit. For new authorizations in FY 2011
and FY 2010, the models incorporated Ex-Im Bank’s actual historical loss and recovery
experience.

Portfolio-Risk Monitoring and Evaluation
The recent volatility in commodity prices, the fluctuation in currency exchange rates, the
general level of economic activity, and the tightening credit markets have had an impact
on the Bank’s operations. Ex-Im Bank, like most participants in the market, is not
immune from the effect of this crisis as evidenced by increased requests for Ex-Im Bank
support.

The Bank's exposure to the banking sector across the globe is approximately $1.8 billion.
Ten percent of the banking sector portfolio, or about $187.0 million are of paid claims.
Institutions operating in Kazakhstan and the Ukraine have been hit the hardest relative to
the global financial crisis and more than $100.0 million of the paid claims come from
these two countries. In the last year, there have been signs of recovery. In some cases,
governments have stepped in to bail out banks, which helped to mitigate the impact of the
crisis. However, liquidity and structural problems remain in certain markets, particularly
emerging economies. The Bank continues to closely monitor this sector and, when
needed, restructured certain bank debt.

Ex-Im Bank continuously monitors its portfolio of credits after they have been approved.
This entails scheduled risk-based review of the debt service capacity of the obligors
taking into account internal and external factors that directly impact ability and
willingness to pay. These periodic reviews allow staff to build greater familiarity with the
businesses to which Ex-Im Bank is exposed and the information obtained through this
effort allows staff to identify vulnerabilities or weaknesses in the credit. Consequently,
the ability to develop and implement remediation actions is greatly enhanced which
ultimately has a positive impact on the quality of the portfolio and final outcome. Most
importantly, the information thus gathered serves as a very critical variable as the Bank
reviews new requests for support.

Exposure-Risk Profile
In accordance with the risk rating system detailed above, Ex-Im Bank classifies credits
into 11 risk categories, with level 1 being the lowest risk. Ex-Im Bank generally does not
authorize new credits that would be risk-rated worse than level 8. On this scale, level 3 is
approximately equivalent to Standard and Poor’s BBB, level 4 approximates BBB-, and
level 5 approximates BB. In addition, certain credits and capitalized interest included in
gross loans receivable are reserved at 100 percent.




                                                                                          30
Ex-Im Bank’s activity increased in FY 2011 from an already elevated level in FY 2010
due primarily to high demand for aviation and structured finance projects. The quality of
the transactions that were financed by Ex-Im Bank improved slightly as evidenced by the
weighted-average risk rating of new activity. The slight decrease in the new authorization
weighted-average risk rating is primarily related to the decrease in demand for Ex-Im
Bank-supported financing among riskier-rated obligors. The overall weighted-average
risk rating for FY 2011 short-term rated, medium-term, and long-term export-credit
authorizations was 3.81 compared to a weighted-average risk rating of 3.87 in FY 2010
and 3.78 on average for the last 5 years. For FY 2011, 76.9 percent of Ex-Im Bank’s
short-term rated, medium-term, and long-term new authorizations were in the level 1 to 4
range (AAA to BBB-) while 23.1 percent were rated level 5 to 8 (BB+ to B-).

Exhibit 14 shows the risk profile of Ex-Im Bank’s short-term rated, medium-term, and
long-term authorizations in FY 2011 and FY 2010 and the past five-year average-risk
profile.

  Exhibit 14: Short-Term Rated, Medium-Term, and Long-Term Authorizations by Risk
                                      Category



                                               70%
 Percentage of Short-Term Rated, Medium-Term




                                               60%
                                               50%
         and Long-Term Authorizations




                                               40%
                                               30%
                                               20%
                                               10%
                                               0%
                                                      Level 1 Level 2 Level 3 Level 4 Level 5 Level 6 Level 7 Level 8

                                                     Risk Level Category     FY 2010     5 Yr Average    FY 2011




Changes in the Portfolio-Risk Level
At September 30, 2011 Ex-Im Bank had a portfolio of $89,152.0 million of loans,
guarantees, insurance and outstanding claims receivable. Exhibit 15 shows the weighted–
average risk rating for new authorizations and the outstanding portfolio over the past five
fiscal years. The new business risk rating includes all short-term rated, medium-term, and
long-term transactions authorized in each respective fiscal year and reflects the weighted-
average risk rating for these authorizations. The outstanding portfolio includes new
business transactions and the existing portfolio risk-rated at the end of each fiscal year.



                                                                                                                        31
The risk rating for the outstanding portfolio decreased to 3.87 in FY 2011 as compared to
4.13 in FY 2010 (Exhibit 15). The decrease in the weighted average risk rating is a result
of the write-off of some high-risk rated credits discussed earlier and FY 2011
authorizations that were better rated than the portfolio average.

                                                 Exhibit 15: Credit Quality Risk Profile



                                           7
  Weighted-Average Risk Level




                                           6

                                           5

                                           4

                                           3

                                           2


                                Fiscal Year 1    2007        2008       2009        2010   2011
                                Total Exposure   4.40        4.25       4.31        4.13   3.87
                                New Business     4.00        3.77        3.43       3.87   3.81




                                                                                                  32
VIII. Financial Statement Analysis

Significant Financial Data
Exhibit 16 presents certain financial data from the Balance Sheets and the Statements of
Net Costs. This financial data is highlighted due to a significant change (10 percent or
more) and/or significant dollar difference between the applicable periods for FY 2011
and FY 2010. More detailed financial information can be found in the financial
statements and footnotes.

                              Exhibit 16: Significant Financial Data

(in millions)                                                    FY 2011             FY 2010
Fund Balance with the U.S. Treasury                          $         3,842.3   $       4,630.4
Loans Receivable, Net                                                  6,701.0           4,868.7
Receivables from Subrogated Claims, Net                                  367.2             437.5
Borrowings from the U.S. Treasury                                      8,279.3           7,254.5
Accounts Payable to the U.S. Treasury                                    939.6             990.3
Other Liabilities                                                        876.7             565.5
Unexpended Appropriations                                                215.8             255.1

Provision for Credit Losses                                             482.1              280.8
Interest Income                                                         502.7              582.1

Fund Balance with the U.S. Treasury: The Fund Balance with the U.S. Treasury
decreased by $788.1 million from $4,630.4 million at September 30, 2010 to $3,842.3
million at September 30, 2011. The change is primarily attributed to approximately
$1,345.0 million in loan principal, interest and guarantee fee collections, $1,024.8 million
in new borrowings from Treasury, offset by $2,589.7 million in direct loan
disbursements, $248.2 million in net Treasury interest expense and $348.0 million of
funds returned to Treasury including a $275.0 million rescission.

Loans Receivable: Loans Receivable increased $1,832.3 million from $4,868.7 million at
September 30, 2010 to $6,701.0 million at September 30, 2011 as a result of the increase
in direct loan authorizations over the past several years.

Receivables from Subrogated Claims, Net: Receivables from Subrogated Claims, Net
decreased $70.3 million from $437.5 million at September 30, 2010 to $367.2 million at
September 30, 2011. The decrease is primarily related to claim recoveries exceeding
claim payments.

Borrowings from the U.S. Treasury: Borrowings from the U.S. Treasury increased
$1,024.8 million from $7,254.5 million at the end of FY 2010 to $8,279.3 million as of
September 30, 2011. The increase is attributable to additional borrowings used to fund
direct loans.


                                                                                               33
Accounts Payable to the U.S. Treasury: Accounts Payable to Treasury decreased $50.7
million from $990.3 million at September 30, 2010 to $939.6 million as of September 30,
2011. The balance decreased mostly due to the $725.8 million transfer to Treasury of the
FY 2010 downward re-estimate and increased for the $687.1 million accrual of FY 2011
downward re-estimate which will be transferred to Treasury in FY 2012.

Other Liabilities: Other Liabilities increased $311.2 million from $565.5 million at
September 30, 2010 to $876.7 million at September 30, 2011. The change is mostly
related to a $701.1 million increase in offsetting collections offset by a reduction of
$404.7 million in offsetting collections due to the rescission and usage for subsidy and
administrative expense costs.

Unexpended Appropriations: Unexpended Appropriations decreased $39.3 million from
$255.1 million at September 30, 2010 to $215.8 million at September 30, 2011. This
balance will continue to decrease as the Bank has not received new appropriations since
FY 2007 and appropriations received in FY 2007 and prior are either disbursed or
cancelled and returned to Treasury.

Provision for Credit Losses: Provision for Credit Losses increased $201.3 million from
$280.8 million as of September 30, 2010 to $482.1 million in the same period in 2011.
The increase primarily reflects the impact of a net upward re-estimate of $102.2 million
in FY 2011 versus a net downward re-estimate of $36.4 million in FY 2010, plus
increased subsidy expenses.

Interest Income: Interest Income decreased by $79.4 million from $582.1 million for the
period ended September 30, 2010 to $502.7 million for the same period in FY 2011. The
decrease is related mostly to a decrease in Treasury interest income due to an overall
decrease in interest earning cash balances.


Significant Factors Influencing Financial Results
The most significant factor that determines Ex-Im Bank’s financial results and condition
is a change in the risk level of Ex-Im Bank’s loan, guarantee and insurance portfolio, and
the adjustment to the allowance for credit losses that must be made to reflect the change
in risk. The level of risk of individual credits or groups of credits may change in an
unexpected manner as a result of international financial, economic and political events.
Consequently, significant and unanticipated changes in Ex-Im Bank’s allowance for
credit losses may occur in any year.

The major risks to the Bank in its credit portfolio are repayment risk and concentration
risk. Other risks the Bank must assess and attempt to minimize are foreign-currency risk,
operational risk, organizational risk and interest rate risk.




                                                                                           34
Repayment Risk: In fulfilling its mission to support U.S. jobs by facilitating the export of
U.S. goods and services, by providing competitive export financing, and ensuring a level
playing field for U.S. goods and services in the global marketplace, Ex-Im Bank must
balance the risks associated with assuming credit and country risks that the private sector
is unable or unwilling to accept with the requirement of reasonable assurance of
repayment for its credit authorizations. Repayment risk is the risk that a borrower will not
pay according to the original agreement and the Bank may eventually have to write-off
some or the entire obligation. Repayment risk is primarily composed of:

       Credit Risk: The risk that an obligor may not have sufficient funds to service its
       debt or may not be willing to service its debt even if sufficient funds are available.

       Political Risk: The risk that payment may not be made to the Bank, its guaranteed
       lender or its insured as a result of expropriation of the obligor’s property, war or
       inconvertibility of the borrower’s currency into U.S. dollars.

Concentration Risk: Risks stemming from the composition of the credit portfolio as
opposed to risks related to specific obligors. The Bank has the following concentration
risks:
       Industry: The risk that events could negatively impact not only one company but
       many companies simultaneously in the same industry. The Bank’s credit exposure
       is highly concentrated by industry: 74.4 percent of the Bank’s credit portfolio is in
       three industries (air transportation, manufacturing, and oil and gas), with air
       transportation representing 48.2 percent of the Bank’s total exposure. Events
       impacting these industries are frequently international in nature and may not be
       confined to a specific country or geographic area.

       Geographic Region: The risk that events could negatively impact not only one
       country but many countries simultaneously in an entire region. The Bank’s credit
       exposure is concentrated by geographic region, with 59.0 percent of the portfolio
       contained in two geographic regions: Asia (36.9 percent) and Latin America and
       Caribbean (22.1 percent).

       Obligor: The risk stemming from portfolio concentration with one or a few
       obligors such that a default by one or more of those borrowers will have a
       disproportionate impact. The Bank’s 10 largest public-sector obligors make up
       20.1 percent of its portfolio, and the 10 largest private-sector obligors make up
       21.0 percent.

Foreign-Currency Risk: Risk stemming from an appreciation or depreciation in the value
of a foreign currency in relation to the U.S. dollar in Ex-Im Bank transactions
denominated in that foreign currency. At the time of authorization, Ex-Im Bank does not
hedge its foreign-currency exposure; however, when the Bank pays claims under foreign-
currency guarantees, the notes are converted from a foreign-currency obligation to a U.S.
dollar obligation. The obligor must then repay to Ex-Im Bank the balance in U.S. dollars.




                                                                                           35
This converts the foreign-currency loan to a dollar loan at that point, thereby eliminating
any further foreign-exchange risks.

Ex-Im Bank provides support for guarantees and insurance denominated in certain
foreign currencies. The foreign currencies approved for Ex-Im Bank transactions as of
September 30, 2011 are: Australian dollar, Brazilian real, British pound, Canadian dollar,
CFA franc, Colombian peso, Egyptian pound, euro, Indian rupee, Indonesian rupiah,
Japanese yen, Korean won, Malaysian ringgit, Mexican peso, Moroccan dirham, New
Zealand dollar, Norwegian krone, Pakistani rupee, Philippine peso, Polish zloty, Russian
ruble, South African rand, Swedish krona, Swiss franc, Taiwanese dollar and Thai baht.
At the time of authorization, Ex-Im Bank records the authorization amount as the U.S.
dollar equivalent of the foreign-currency obligation based on the exchange rate at that
time.

Operational Risk: Operational risk is the risk of material losses resulting from human
error, system deficiencies and control weaknesses. To mitigate the risk of loss stemming
from operational dysfunctions, Ex-Im Bank has established a strong internal control
environment that is reviewed by an independent internal auditor and has included process
documentation, proper supervisory monitoring and technology access/edit controls. Ex-
Im Bank also has an Office of Inspector General that conducts audits, inspections and
investigations relating to the Bank’s program and support operations.

Organizational Risk: The risk of loss to Ex-Im Bank due to the organizational
environment: people and skills, incentives, culture and values. Ex-Im Bank hires highly
qualified individuals and has a culture of rigorous risk assessment. Continual training
opportunities are offered to all employees to maintain and enhance their high skill levels.

Interest Rate Risk: Ex-Im Bank makes fixed-rate loan commitments prior to borrowing to
fund loans and takes the risk that it will have to borrow the funds at an interest rate
greater than the rate charged on the credit. Any interest rate disparity would be accounted
for in the subsidy re-estimate.


IX. Other Management Information

Statutory Limitations
Ex-Im Bank has several significant financial limitations that are contained in its Charter
and in various appropriation acts. The following exhibits (Exhibit 17 and Exhibit 18)
summarize the status of those limitations as of September 30, 2011, as well as the
utilization of available funding.




                                                                                             36
                                   Exhibit 17: Financial Statutory Limitations

   (in millions)
                                                                                      Adminstrative
   Spending Authority                                Program Budget       Tied-Aid        Expense
   Carry-Over from prior year                                 $497.0        $178.0            $1.5
   Rescission of Carry-Over Funds                            (275.0)           -              N/A
   Cancellations during FY 2011                                 4.5            -              N/A
   Offsetting Collections                                      612.2           -              88.9
   Inspector General                                            N/A           N/A               2.5
   Total                                                      $838.7        $178.0           $92.9

   Obligated                                                  $68.1            -              $91.3
   Unobligated Balance Lapsed                                   -              -                -
   Unobligated Balance Available                             $770.6         $178.0             $1.6

                                                           Available     Obligated         Balance
   Statutory Lending Authority                            $100,000.0     $89,152.0        $10,848.0

Tied-aid is government-to-government concessional financing of public-sector capital
projects in developing countries. Tied-aid terms usually involve total maturities longer
than 20 years, lower-than-market interest rates and/or direct grants.

                     Exhibit 18: Program Budget (excluding Tied Aid) Available and Utilized

             $1,200.0

             $1,000.0

                   $800.0
   (in millions)




                   $600.0

                   $400.0

                   $200.0

                      $0.0
          Fiscal Year            2007            2008            2009             2010           2011
                   Available    $169.5          $165.6          $192.2           $541.6         $838.7
                   Utilized      $51.7           $25.4           $29.6            $44.0          $68.1




                                                                                                      37
X. Limitations of the Financial Statements

The principal financial statements have been prepared to report the financial position and
results of operations of Ex-Im Bank, pursuant to the requirements of 31 U.S.C. 3515 (b).
While the statements have been prepared from the books and records of Ex-Im Bank in
accordance with government GAAP and the formats prescribed by OMB, the statements
are in addition to the financial reports used to monitor and control budgetary resources,
which are prepared from the same books and records.

The statements should be read with the realization that they are for a component of the
U.S. Government, a sovereign entity.




                                                                                          38
             XI. Required Supplementary Information

             Exhibit 19 presents the Statement of Budgetary Resources by Ex-Im Bank’s major budget
             accounts.

                               Exhibit 19: Disaggregated Statement of Budgetary Resources
                                                  For the Year Ended September 30, 2011

                                                                                   Guaranteed-     Pre-Credit-
                                                                     Direct-Loan      Loan          Reform
                                                         Program      Financing     Financing      Financing
(in millions)                                            Account      Account       Account        Account       Other       Total
BUDGETARY RESOURCES
Unobligated Balance, Brought Forward October 1             $906.7             $-      $1,545.1          $0.2     $12.0      $2,464.0
Recoveries of Prior-Year Unpaid Obligations                  20.7          45.1             -             -         -           65.8
Budget Authority:
      Appropriation                                         717.9            -               -             -        2.5        720.4
      Borrowing Authority                                      -        6,612.1              -             -         -       6,612.1

      Spending Authority from Offsetting Collections        702.2       1,674.1          890.6          33.5      21.6       3,322.0
Permanently Not Available                                  (278.7)       (726.9)          (3.1)        (21.9)    (22.0)     (1,052.6)
Total Budgetary Resources                                $2,068.8      $7,604.4       $2,432.6         $11.8     $14.1     $12,131.7



STATUS OF BUDGETARY RESOURCES
Obligations Incurred, Direct                               $872.2      $7,604.3       $1,158.7         $11.8      $2.4      $9,649.4
Unobligated Balance, Apportioned                            956.4            -         1,273.9            -       10.8       2,241.1
Unobligated Balance Not Available                           240.2            -              -             -        1.0         241.2
Total Status of Budgetary Resources                      $2,068.8      $7,604.3       $2,432.6         $11.8     $14.2     $12,131.7

CHANGE IN OBLIGATED BALANCE
Obligated Balance, Net:

      Unpaid Obligations, Brought Forward October 1        $106.9      $5,496.3           $14.4          $0.0     $1.4      $5,619.0
Obligations Incurred, Net                                   872.2       7,604.3         1,158.7          11.8      2.4       9,649.4
Gross Outlays                                              (860.5)     (3,483.3)       (1,171.0)        (11.8)    (2.6)     (5,529.2)
Recoveries of Prior-Year Unpaid Obligations                 (20.7)        (45.1)             -             -        -          (65.8)
Total, Unpaid Obligated Balance, Net, End of Period         $97.9      $9,572.2            $2.1          $0.0     $1.2      $9,673.4

NET OUTLAYS
     Gross Outlays                                         $860.5      $3,483.3       $1,171.0          $11.8      $2.6     $5,529.2
     Less: Offsetting Collections                          (702.2)     (1,674.1)        (890.6)         (33.5)    (21.6)    (3,322.0)
Net Outlays                                                $158.3      $1,809.2        $280.4          ($21.7)   ($19.0)    $2,207.2




                                                                                                                    39
Improper Payments Elimination and Recovery Act


The Improper Payments Elimination and Recovery Act (IPERA) of 2010 (P.L. No. 111-
204) requires agencies to review their programs and activities to identify those
susceptible to significant improper payments. In accordance with IPIA, Ex-Im Bank
assessed its risk of a significant erroneous payment (defined for this purpose as annual
erroneous payments in a program exceeding both 2.5 percent of the program payments
and $10 million or $100 million, regardless of the improper payment percentage of total
program outlays). The scope of this assessment included all program payments. For this
purpose the term “payment” is defined as any payment that is:

       A payment or transfer of funds (including a commitment for future payment,
       such as cash, securities, loans, loan guarantees, and insurance subsidies) to any
       non-Federal person or entity
      Made by a Federal agency, a Federal contractor, Federal grantee, or a
       governmental or other organization administering a Federal program or activity.

Ex-Im Bank identified three areas of payments which qualify under the above definition
and therefore, warranted a risk assessment: administrative payments, claim payments,
and loan disbursements. Ex-Im Bank assessed the risk of improper payments associated
with these programs to be low due to its internal controls in place, the nature of these
disbursements, and the results of an internal risk assessment questionnaire.

The questionnaire includes questions categorized per the Committee of Sponsoring
Organizations of the Treadway Commission (COSO) Internal Control Framework
(control environment, risk assessment, control activities, information and communication
and monitoring). Inclusion of the questionnaire incorporates additional quantitative
components into the risk assessment. Based on this assessment, under the IPIA, no
further action was required.




                                                                                           40
Office of Inspector General
Export-Import Bank of the United States
811 Vermont Avenue, NW
Washington, DC 20571
202-565-3908
www.exim.gov/oig
